<html>
<title> - THE FISCAL YEAR 2010 BUDGET FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, CUSTOMS AND BORDER PROTECTION, AND THE U.S. COAST GUARD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 THE FISCAL YEAR 2010 BUDGET FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, 
        CUSTOMS AND BORDER PROTECTION, AND THE U.S. COAST GUARD

=======================================================================



                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________

                           Serial No. 111-24

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
55-886                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. LANIER AVANT, Staff Director

                     ROSALINE COHEN, Chief Counsel

                     MICHAEL TWINCHEK, Chief Clerk

                ROBERT O'CONNER, Minority Staff Director

                                 ______

      SUBCOMMITTEE ON BORDER, MARTIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
ANN KIRKPATRICK, Arizona             CANDICE S. MILLER, Michichgan
BILL PASCRELL, JR., New Jersey       PETER T. KING, New York (Ex 
AL GREEN, Texas                      Officio)
ERIC J.J. MASSA, New York
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                     Alison Northop, Staff Director

                          Denise Krepp Counsel

                       Carla Zamudio-Dolan, Clerk

                Mandy Bowers Minority Subcommittee Lead

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Martime, and Global Counterterrorism...................     2
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    42
The Honorable Ann Kirkpatrick, a Representative in Congress from 
  the State of Arizona...........................................    34
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas:
  Oral Statement.................................................    38
  Prepared Statement.............................................    38
The Honorable Michael McCaul, a Representative in Congress from 
  the State of Texas.............................................    35
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    37

                               WITNESSES

Mr. John T. Morton, Assistant Secretary, U.S. Immigration and 
  Customs Enforcement, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Jayson P. Ahern, Acting Commissioner, U.S. Customs and Border 

  Protection, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Admiral Thad W. Allen, Commandant, U.S. Coast Guard, Department 
  of Homeland Security:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                             For the Record

The Honorable Bennie G. Thompson, Chairman, Committee on Homeland 
  Security:
  Prepared Statement.............................................     4

                               Appendixes

Appendix I--Fiscal Year 2010 Budget Request......................    51
Appendix II--Questions and Responses:
  Responses from Adm. Thad W. Allen..............................    53


 THE FISCAL YEAR 2010 BUDGET FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, 
        CUSTOMS AND BORDER PROTECTION, AND THE U.S. COAST GUARD

                              ----------                              


                        Thursday, June 11, 2009

             U.S. House of Representatives,
                  Subcommittee on Border, Maritime,
                       and Global Counterterrorism,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Jackson Lee, Cuellar, 
Kirkpatrick, Pascrell, Green, Souder, Massa, and McCaul.
    Ms. Sanchez. [Presiding.] I believe that, with respect to 
time and everything, I know that Mr. Souder has said to go 
ahead with the hearing so I think that we will begin although 
he is on his way.
    But given some of the constraints, votes on the floor this 
morning, and I myself also being a senior member of the defense 
committee, we have markups in two of my subcommittees today, 
one starting at 11:00 and, of course, I have to be there, not 
only for my amendments but to provide the votes to move that 
bill along.
    So because of that, and I now see that we are going by one 
of our colleagues from the other side. So great, thanks for 
being here this morning, Mr. McCaul. And so I would like to 
begin and have this subcommittee come to order.
    This subcommittee, the Border, Maritime, and Global 
Counterterrorism Subcommittee is meeting today to receive 
testimony on fiscal year 2010 budget for immigration and 
customs enforcement, Customs and Border Patrol section and U.S. 
Coast Guard.
    I think that this hearing is important because it will 
hopefully give us some more information for us to continue to 
analyze the budget, not only at the present put forward, but 
also the one that is moving through the appropriations 
subcommittee, which, as you know, met yesterday. And I believe 
either today or next week the full committee will take a look 
at the funding allocations.
    However, this being a policy committee I think we have a 
lot of the input to appropriators on that so I think it is 
important, because when we look at the budget, of course, we 
look at really the true priorities.
    We can say anything we want but if the monies aren't in the 
places that are important, that we have talked about, that we 
have analyzed as a committee, then, you know, what we are 
really saying is that we don't believe those priorities.
    So I am glad that we have a strong showing. I know it is a 
very busy time right now in the Congress, and so I am very 
thankful that my colleagues on my side in particular have shown 
up in a strong force.
    I am supportive of the president's $55 billion request for 
the Department of Homeland Security, and I agree with many of 
the allocations that have been made across the board. I in 
particular would like to highlight some of the areas.
    I am glad that we have a great panel this morning that cuts 
across all of our primary areas with the commandant and the 
assistant secretary and the acting commissioner. Thank you 
three for being here today.
    I think that we need to make sure that we need to have 
sufficient staffing given the border violence that we are 
seeing, in particular Mexico, Corsi underfunded or sometimes 
the lack of assets that we have had at the northern border we 
have also been looking at. The, what we call ``the third 
border,'' or the whole Caribbean initiative, then of course 
that falls strongly with respect to the Coast Guard.
    I saw that in the president's budget he had put in funding 
for 85 new CVP officers. I know that we are trying very hard to 
get staffing up and well trained so that we can do a good job. 
So I would like to hear a little bit about what your needs are 
and whether you think that that is enough in the budget.
    Also, as a member of the Human Rights Caucus I was pleased 
to see the request for $69.3 million for the development of 
ICE's alternatives to detention programs. The assistant 
secretary and I had a little meeting yesterday where we talked 
something about that.
    Of course this involves some of our most vulnerable 
populations, such as the elderly, women and children. I know 
that the president is inclined to do feasibility about 
privatizing detention facilities.
    Just from the onset, I am probably not really thrilled 
about that proposal, just from the standpoint that we haven't 
had enough oversight on what we have and to have it at an arm's 
length away from even some oversight from this committee, I 
have some concerns with respect to that.
    And of course we have the Transportation Worker 
Identification Card program. The commandant and I have been 
meeting on that recently to see how that is rolling out. And I 
would love to receive an update, commandant, on how that is 
going.
    So I know that there are particular concerns and questions 
and issues that will be brought up by the members who are here. 
And so I would like to thank all of you for being here today. 
And I would like to yield to my ranking member, the gentleman 
from Indiana, for his opening statement.
    Mr. Souder. Thank you, Madam Chair. I am looking forward to 
hearing from this great panel of witnesses. I would like to 
recognize John Morton and highlight that this is his first 
congressional hearing other than his confirmation hearing, and 
I appreciate your willingness to work with this committee and 
those of us who are active on these issues.
    Admiral Allen and Ahern are regulars on the Hill here. I 
want to thank you both for your longtime service and also 
appreciate you being here today as well. It isn't often that we 
have the head of the Coast Guard, the CBP and ICE here 
together, and therefore I want to keep my statement relatively 
short so we have time for the testimony and questions.
    One issue, though, I want to explore is the coordination in 
intelligence stove piping. It has been a longtime challenge on 
all of our agencies and inside DHS. Once you hear interagency 
coordination between these three critical DHS components has 
improved over fiscal year 2010 budget will further strengthen 
operational coordination and intelligence sharing.
    Also important to this discussion is whether the DHS 
agencies have sufficient authority for your broad missions and 
how they are coordinating with other federal, state and local 
agencies. Another key issue that needs to be discussed today is 
the operational control of the border, including how new 
smuggling trends are being addressed, and sustainable efforts 
to prevent spillover violence and assist the government of 
Mexico with their domestic efforts to fight drug trafficking 
organizations.
    On Tuesday the chair and I had the privilege to manage the 
floor consideration on the House resolution recognizing the 
85th anniversary of the border patrol. The 18,000 plus agents 
work around the clock to identify and apprehend illegal aliens 
and smugglers, always aware that there is a threat of 
terrorists seeking to exploit the border.
    The administration and Congress must provide additional 
tools and resources for them to successfully do their mission. 
This is true for all the agencies here, not just the border 
patrol. I am concerned that the fiscal year 2010 budget will 
fall short, especially in gaining operational control of the 
border.
    According to the budget documents, CBP does not expect to 
gain control of one additional mile of the border in 2010. 
Related to this, the schedule for SBInet deployment has been 
delayed again. It is my understanding that the earliest 
technology is expected to be deployed outside of the Tucson-1 
area, which is basically the same area as Project 28 initiated 
in 2006, in the second quarter of 2010.
    I don't see how this Congress can consider taking up 
immigration reform legislation until we control our land and 
coastal borders. Even more important is the continued 
opportunities for unsecured borders that they offer to violent 
criminal organizations and potentially to terrorists with 
access to the United States.
    In closing, this committee, and in particular this 
subcommittee, support the work of each of your agencies, 
everything you do, every day of the year to keep this country 
safe. Whatever the shortfalls may be in the budget request, 
whatever additional authorities or resources your agencies 
need, I am confident that we will continue to work together in 
a bipartisan fashion to provide the necessary congressional 
support and oversight.
    Thank you, Madam Chair for this hearing and I yield back.
    Ms. Sanchez. I thank my ranking member. Other members of 
the subcommittee are reminded that, under the committee rules, 
opening statements may be submitted for the record.

                             For the Record

    Prepared Opening Statement of the Honorable Bennie G. Thompson, 
                Chairman, Committee on Homeland Security

The FY 2010 Budget for Immigration and Customs Enforcement, Customs and 
              Border Protection, and the U.S. Coast Guard

                       June 11, 2009 at 10:00 AM

                    311 Cannon House Office Building

    <bullet> I want to thank our witnesses for being here today to 
testify in support of the President's Fiscal Year 2010 Budget Request 
for Immigration and Customs Enforcement, Customs and Border Protection, 
and the U.S. Coast Guard.
    <bullet> I would also like to congratulate Mr. Morton on his recent 
confirmation as Assistant Secretary for ICE.
    <bullet> As I stated when Secretary Napolitano testified before the 
full Homeland Security Committee last month, the Administration has 
managed to submit a very comprehensive budget that answers a lot of our 
questions about where the Department wants to go, despite having 
numerous challenges on its plate.
    <bullet> As our witnesses well know, ICE, CBP, and the Coast Guard 
shoulder responsibility for many of the Department's challenges.
    <bullet> The men and women of these agencies are quite literally on 
the front lines of America's security.
    <bullet> That is why I support the Administration's funding request 
for the three agencies as well as several proposed programmatic changes 
in the budget.
    <bullet> For ICE, I am pleased that additional resources were 
requested for southwest border enforcement and for removal of dangerous 
criminal aliens.
    <bullet> Similarly, for CBP, I support funding requested to combat 
smuggling of firearms and currency, which fuels drug-related violence 
along the southwest border, and to deploy technology along our Nation's 
borders.
    <bullet> For the Coast Guard, I am pleased that the budget provides 
the funds necessary to ensure it can move forward with long-overdue 
recapitalization of its fleet.
    <bullet> These resources will help ICE, CBP and the Coast Guard 
better secure our borders and the Nation as a whole.
    <bullet> While I support the budget proposal overall, I do have 
some concerns, however.
    <bullet> In certain instances, additional funding, personnel, or 
infrastructure may be necessary to ensure that ICE, CBP, and the Coast 
Guard have the tools they need to fulfill their missions.
    <bullet> These agencies must have adequate resources to carry out 
critical initiatives such as 100 percent scanning of inbound cargo, 
safe and humane detention of undocumented aliens, and deployment of 
effective border security technology.
    <bullet> It is also imperative that they have appropriate internal 
resources to oversee important procurements, such as SBInet and 
Deepwater, to ensure that our limited homeland security dollars are 
well spent.
    <bullet> In these tough economic times, I am committed to helping 
secure a budget for the Department that is both fiscally responsible 
and strengthens the security of the United States.
    <bullet> I look forward to hearing from each of our witnesses today 
about how the proposed budget will help you meet the homeland security 
goals set forth by the President.
    <bullet> Going forward, I hope to continue working cooperatively 
with you to advance the Department of Homeland Security's mission in 
the interest of the American people.
    <bullet> Again, thank you and I look forward to your testimony.

    Ms. Sanchez. So I will welcome our panel of witnesses.
    Our first witness, John T. Morton, is the Assistant 
Secretary of Homeland Security for U.S. Immigration and Customs 
Enforcement, what we call ICE. He leads the principal 
investigative component of the Department of Homeland Security. 
It is the second largest investigative agency in the federal 
government, with more than 19,000 employees and an annual 
budget of more than $5 billion.
    He came to ICE with an extensive background in federal law 
enforcement, immigration law and policy, having held a variety 
of positions within the Department of Justice. Mr. Morton was 
confirmed unanimously by the Senate last month, becoming the 
third assistant secretary to lead the ICE in the agency's 
secured assistance.
    Our second witness, Jayson Ahern, was named acting 
commissioner of the U.S. Customs and Border Protection in March 
2009, following the retirement of our former commissioner. And 
since August 2007, Mr. Ahern has served as CBP's deputy 
commissioner.
    During this interim appointment as acting commissioner, Mr. 
Ahern will continue to serve as chief operating officer 
overseeing the daily operations of CBP's 53,000 employee 
workforce and managing an operating budget of over $11 billion. 
He is in his 33rd year of public service. And of course you 
began your career in San Ysidro, California, so welcome again,
    To our third witness, Commandant Admiral Thad W. Allen, who 
is the 23rd commandant of the U.S. Coast Guard, assuming those 
duties of May 2006. He leads about 42,000 men and women on 
active duty, 7,000 civilians, 8,000 reservists and 34,000 
volunteer auxiliarists.
    In his 38 years of service, the admiral has held 
operational command both at sea and the shore, conducting 
missions to support the maritime safety security and 
environmental stewardship interests of our nation.
    And today the admiral is leading the Coast Guard through 
significant modernization to better organize, train, equip and 
deploy the men and women to meet the challenges of the 21st 
century. So we welcome you, Commandant.
    First of all I just would like to thank the three of you 
because this is the first time in any of the hearings that I 
have held as a chairman that we have received all of our 
witnesses' testimony on time by the deadline that we asked that 
testimony for. So I hope it is the beginning of a good year for 
us with you.
    Without objection your full statements therefore are 
inserted in the record, and I will ask you to summarize your 
testimony in 5 minutes or less, beginning with Assistant 
Secretary Morton.

STATEMENT OF JOHN MORTON, ASSISTANT SECRETARY, U.S. IMMIGRATION 
    AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Morton. Chairwoman Sanchez, ranking member Souder, 
members of the subcommittee, thank you for inviting me here to 
review the president's fiscal year 2010 budget request for ICE 
and to discuss ICE's management, investigative and operational 
priorities for the upcoming fiscal year.
    As you mentioned, Chairwoman, ICE is the primary 
investigative agency within DHS. We have a diverse and 
important mission including the enforcement of more than 400 
immigration and customs laws.
    Our principal aims are these: to protect national security 
and public safety by preventing the illegal entry of terrorists 
and contraband that would do us harm; to work with our partners 
at CBP and the Coast Guard to secure our borders both north and 
south; and to assure, along with CPB and CIS, that our 
immigration and custom laws are credibly, but fairly enforced.
    While our responsibility to enforce the nation's 
immigration laws receives much attention, I want to note that 
there are many other things that ICE does and does well. For 
example, we investigate human trafficking, sex tourism, human 
rights offenses and international child exploitation.
    We investigate the unlawful export and proliferation of 
military weaponry and technology, the smuggling of narcotics 
and the trade in counterfeit and substandard goods. We target 
international money laundering, bulk cash smuggling and 
international financial frauds.
    These are all vitally important tasks, and I thank you for 
the authority and support we have received from Congress, to 
date, to perform them.
    As the new assistant secretary of ICE, my priorities 
include strengthening ICE's criminal law enforcement mission, 
improving the detention program, raising morale and managing 
our resources wisely and efficiently to advance the 
department's priorities.
    Although I have been on the job a very short time, I have 
already been struck by the dedication of our men and women in 
the field. I have traveled three times, so far, and on each 
trip I met with, and heard from, our special agents, 
deportation officers and attorneys. We have some very, very 
good people, and I hope to support them and assist them in 
building creative and effective programs.
    One such program is our work site enforcement program. My 
goal is to implement a strategy that will both deter employers 
from hiring unauthorized labor and punish those who knowingly 
violate the law.
    To that end we will seek to identify, prosecute and fine 
employers who knowingly hire illegal aliens, with a particular 
emphasis on those employers who violate the law on a grand 
scale, or subject workers to abusive conditions or illegal pay.
    If we are to restore integrity to our immigration system, 
we must address the magnet of unlawful employment that draws so 
many people here. As you recently heard from the secretary, one 
of the department's priorities is to address crime and violence 
across the southwest border.
    This is another area that I want to address and one in 
which ICE has a very significant role to play. We have broad 
powers to investigate border crimes, including the illegal 
movement of drugs, money, guns and people. You can be assured 
that ICE will be attentive to the many problems along the 
border and that we will work well with our federal, state and 
international partners to get the job done.
    Another priority Secretary Napolitano and I share is the 
strengthening of our immigration detention system. When ICE 
detains people it is important that they be detained in 
appropriate facilities with good custodial conditions and high 
standards of medical care.
    The system needs to be transparent, well run and focused on 
the mission at hand, namely the civil detention of deportable 
immigrants who pose a serious risk of flight or a danger to the 
community.
    The budget request presented today reflects the 
department's priorities and outlines the resources need to 
support ICE in its mission to enforce laws and protect the 
public. I am confident that this budget request will help to 
advance the important mission of ICE, and I look forward to 
next year when I can share the results of implementing these 
priorities.
    The proposed budget builds on the foundation of ICE's 
recent accomplishments and totals nearly $5.7 billion. This 
request targets the administration's priorities and will enable 
ICE to continue to address violence along the southwest border, 
to focus on core improvements to ICE's infrastructure, to 
identify and remove criminal aliens from our communities, to 
strengthen state and local coordination and to provide improved 
medical care to those who we detain.
    I want to thank the subcommittee for its support of ICE and 
our law enforcement mission. And as a very recent and new 
member of the ICE family, I want to say that I personally look 
forward to a very long and productive relationship with the 
subcommittee.
    These are very, sort of, challenging and weighty issues 
that confront me and our country, and I look forward to working 
with people of goodwill to try to get to a good result. Thank 
you.
    [The statement of Mr. Morton follows:]

                  Prepared Statement of John T. Morton

    INTRODUCTION
    Chairwoman Sanchez, Ranking Member Souder, and distinguished 
Members of the Subcommittee:
    It is my honor and privilege to appear before you today to present 
the President's Fiscal Year (FY) 2010 budget request for Immigration 
and Customs Enforcement (ICE), and to discuss our management, 
investigative, and operational priorities for the upcoming fiscal year.
    As you know, ICE has a diverse and important mission, including the 
enforcement of more than 400 customs and immigration laws. ICE is the 
primary investigative agency within the Department of Homeland Security 
(DHS). Our special agents target, investigate, and dismantle criminal 
organizations who threaten national security. ICE protects our 
borders--north and south--by investigating groups who exploit weakness 
in our legitimate trade, travel, and financial systems. ICE enforces 
the nation's immigration laws and is committed to doing so effectively 
and efficiently. Although not the exclusive mission of ICE, immigration 
enforcement is a core mission and priority.
    In addition, ICE protects national security through an aggressive 
proliferation program and by investigating those who seek to import 
unsafe consumer products into the country. ICE also protects 
communities by identifying and removing criminal aliens, gang members, 
perpetrators involved with child pornography, trafficking and 
smuggling, and human rights violators. It is with your support that we 
succeed in our mission.
    As the new Assistant Secretary of ICE, my focus will include 
reforming the detention program, strengthening law enforcement mission, 
raising morale, and managing our resources wisely and efficiently to 
advance the Department's priorities. As the Secretary has made clear, 
reforming the detention system is among her main concerns. I share that 
priority. I am committed to ensure people in our custody receive 
quality medical care and to enhance the oversight of the detention 
program. I recently toured several detention facilities and have faith 
that the good men and women of ICE are ready to meet the challenge we 
face.
    One of my first acts when I was sworn in was to travel and meet 
with ICE personnel in the places where they operate everyday. I was 
able to hear from some of the very talented special agents working to 
advance our mission and ensure safety and security in our country. I 
hope to support and assist them in building creative and effective 
investigative programs. My priorities include bolstering the 
investigation and prosecution of major crimes and increasing agency 
focus on several specific issues: international money laundering and 
organized crime, weapons proliferation and export controls, human 
trafficking and child exploitation, intellectual property and 
counterfeiting, and immigration and identity fraud that promote travel 
by terrorists, criminals, and others who pose a threat to public 
safety.
    I also intend to bring new ideas and creativity to our enforcement 
program, including working with our federal, state and local partners 
to ensure that exploitative employers that violate labor and other laws 
are fully prosecuted. My goal is to implement a strategy that will not 
only punish employers who knowingly violate the law, but effectively 
deter employers from hiring unauthorized labor, addressing the demand 
that drives illegal immigration. This will reduce the effect of one 
magnet that encourages many people to enter the United States 
unlawfully.
    As you recently heard from the Secretary, another high priority for 
the Department is to address crime and violence along the southwest 
border. ICE has a significant role to play in this effort. The agency 
must effectively confront the illegal movement of drugs, money, guns, 
and people across the border. ICE continues to work well with our 
federal, state, and local partners to address border violence and 
related crimes.
    The budget request presented today reflects not only the priorities 
of the Department, but the resources necessary to support the vital 
roles that ICE plays in enforcing laws and protecting the public. I am 
confident this budget request will help to advance the important 
mission of ICE, and I look forward to next year, when I can share the 
results of implementing these priorities.

FISCAL YEAR 2010 BUDGET REQUEST
    The proposed budget builds on the foundation of recent 
accomplishments and totals nearly $5.77 billion. This request targets 
the Administration's priorities and will enable ICE to continue to 
address violence along the southwest border, focus on core improvements 
to ICE infrastructure, identify and remove criminal aliens, ensure 
individuals in ICE custody receive proper care, and strengthen 
coordination with our federal, state, local, tribal, and foreign law 
enforcement partners in the fight against transnational criminal 
organizations.

Combating South west Border Violence
    Border enforcement and combating border violence is a key component 
of the ICE mission. ICE targets organizations that exploit our 
legitimate trade, travel, and financial systems. ICE uses all 
enforcement methods to ensure that cross-border crime is attacked from 
every possible angle. Indeed, the recent escalation of violence by 
Mexican drug cartels and other criminal organizations just over the 
border demonstrates the ongoing importance of our mission. As Secretary 
Napolitano recently testified, the violence in Mexico is a bi-national 
threat that affects security not only in Mexico, but also here at home.
    Mexico is battling the same cartels that use violence to put drugs 
on our streets. Illegal drugs, money, and weapons flow both ways across 
our border inextricably linking the U.S. and Mexico in efforts to 
combat drug cartels. Our countries share nearly 2,000 miles in border, 
billions of dollars in trade, a commitment to democracy, and the need 
to prevail against the transnational threats of organized crime.
    The DHS family must act in concert. The violence along our 
southwest border requires a comprehensive, multifaceted, and 
collaborative effort. Secretary Napolitano, who is very much aware of 
this matter, issued an Immigration and Border Security Action Directive 
in January 2009 to use the Department's wide-ranging authorities to 
boost efforts to combat such violence.
    Additionally, on March 24,2009, DHS, DOJ and the Department of 
State (DOS) announced the Southwest Border Initiative designed to crack 
down on Mexican drug cartels through enhanced border enforcement. The 
plan calls for additional personnel, increased intelligence capability, 
and better coordination with federal, state, local and Mexican law 
enforcement authorities to target illegal guns, drugs, and cash.
    The ICE budget requests an additional $70 million for 349 agent and 
officer positions to increase enforcement staffing at the border, 
improve cooperative efforts with the Mexican government, and enhance 
the capabilities of the Border Violence Intelligence Cell in El Paso 
Texas. This cross-border initiative will increase national security by 
expanding activities to secure our southwest border.

Partnering with Federal, State, Local, Tribal, and Foreign Law 
Enforcement
    Improving coordination and partnerships with federal, state, local, 
territorial, tribal, and foreign law enforcement, particularly in the 
border region, is essential to securing our nation against the threat 
of cartel violence. Law enforcement agencies at all levels of 
government have significant roles to play in addressing the current 
border violence and in preparing for scenarios where violence in Mexico 
could impact the United States. Law enforcement agencies at the state, 
local, territorial, and tribal level have dealt with border violence 
for many years, and have deep operational knowledge of the border 
region. To confront border violence effectively, federal agencies must 
collaborate and share resources and intelligence with our partners on 
the ground.
    ICE works closely with federal, state, local, territorial, tribal, 
and foreign partners in various ways. For example, in 2005, DHS created 
the Border Enforcement Security Task Forces (BEST). BEST is an 
innovative model for collaborative law enforcement. At present, 15 
BESTs are operational. Participants include ICE, CBP, the U.S. Coast 
Guard, the DHS Office of Intelligence and Analysis, the Drug 
Enforcement Administration (DEA), the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives (ATF), the Federal Bureau of Investigation 
(FBI), U.S. Attorney offices, and state and local law enforcement 
agencies. Currently, Mexican law enforcement agencies also have 
officers assigned to five Indeed, the government of Mexico has agreed 
to provide representatives to every BEST team on the southwest border 
by FY2010. In addition, ICE participates in fusion centers in many 
states and large cities, particularly along the southwest border, in an 
effort to share information and intelligence among all partnering law 
enforcement agencies.
    The BEST model has been successful. ICE, with the help of our 
partners, has cracked down on arms trafficking, human smuggling, bulk 
cash smuggling, and narcotics smuggling organizations. These efforts 
have disrupted cartel operations in both the United States and Mexico.
    Since July 2005, the efforts of BEST teams, working in conjunction 
with the Department of Justice (DOJ) and other law enforcement 
agencies, have been responsible for 2,238 criminal arrests, 2,924 
administrative arrests, 1,014 indictments, and 846 convictions. In 
addition, have seized approximately 9,070 pounds of cocaine, 179,739 
pounds of marijuana, 702 pounds of methamphetamine, 99 pounds of 
crystal methamphetamine, 1,161 pounds of ecstasy, 243 pounds of heroin, 
97 pounds of hashish, 22 pounds of opium, 2,075 weapons, 820 vehicles, 
seven properties, and $24.7 million in U.S. currency and monetary 
instruments.

Weapons and Bulk Cash into Mexico
    As President Caleron's government continues its courageous struggle 
against the drug cartels in Mexico, it has become clear that stopping 
the flow of weapons southbound out of the U.S. into Mexico is an urgent 
priority. A large number of weapons recovered in the Mexican drug war 
are smuggled illegally into the country from the United States. 
President has identified the illegal flow of weapons from the United 
States as one of the biggest security threats to Mexico. Stopping 
weapons smuggling is a particular challenge, due to both the nature of 
the southwest border and that the majority of smuggling occurs in small 
shipments of a few weapons at a time. ICE's border authorities are 
uniquely positioned to address this challenge.
    In June 2008, ICE, along with CBP and other federal, state, and 
local partners, launched Operation Cruzadas, a partnership with the 
government of Mexico to fight cross-border arms smuggling. Under Armas 
Cruzadas, ICE has taken an intelligence-driven and systematic approach 
to disrupting and dismantling arms trafficking organizations operating 
along the southwest border. As part of this effort, ICE initiated a 
Weapons Virtual Task Force to create a virtual community where law 
enforcement rapidly shares intelligence and communicates in a secure 
environment through the Homeland Security Information Network (HSIN). 
ICE also worked with the Mexican government to create a U.S.-vetted 
Arms Trafficking Unit, comprised of Mexican law enforcement officers, 
to initiate investigations on the Mexican side of the border.
    Since its inception, Operation Armas Cruzadas has resulted in the 
seizure of 1,441 weapons, more than $6 million in currency and monetary 
instruments, 122,416 rounds of ammunition, and arrested 338 individuals 
on criminal charges. As a result, 94 people have been indicted and 51 
convicted.
    In addition to weapons smuggling, ICE has partnered with CBP to 
combat the illegal movement of cash across the southwest border. Drug 
cartels pose a dangerous threat in part due to their extensive monetary 
resources. The U.S. must interrupt that illegal flow of money. 
Operation Firewall addresses the threat of bulk cash smuggling. ICE 
targets individuals and organizations that exploit vulnerabilities in 
financial systems to launder illicit proceeds.
    Operation has produced sustained results. In 2005, on the first day 
of operation at the Benito Juarez International Airport in Mexico City, 
Mexican authorities seized $7.8 million en route to Colombia, concealed 
inside deep fryers, rotisseries, and voltage regulators. Other notable 
seizures include $7.3 million hidden inside rolls of fabric and plastic 
and $4.7 million concealed inside air conditioning equipment and metal 
piping. Since its inception, Operation has led to 452 arrests and the 
seizure of more than $195 million, including $64 million seized 
overseas.
    ICE also recently established a Trade Transparency Unit with Mexico 
to identify cross-border trade anomalies, which are often indicative of 
trade-based money laundering. Under this initiative, ICE and law 
enforcement agencies in cooperating countries exchange import and 
export data and financial information. ICE's efforts led to more than 
$50 million in cash seizures in FY2008

Criminal and Fugitive Aliens
    ICE is the primary agency responsible for locating and removing 
criminal aliens within the United States. $39.1 million of new funding 
is requested to hire, train, and equip 80 new enforcement personnel who 
will identify suspected criminal aliens, determine their immigration 
status, prioritize ICE enforcement actions against removable criminal 
aliens, and assist in the removal of arrested criminal aliens. Funding 
will also support our continued investment in information technology 
and allow ICE to more efficiently identify and remove criminal aliens.
    Through the Secure Communities Program, ICE works to identify 
criminal aliens in federal, state, and local custody--prioritizing the 
removal of convicted dangerous criminal aliens. Secure Communities 
provides technology to state and local booking locations so that 
booking officers are then able to simultaneously search a person's 
criminal history and immigration information using a combined 
information platform. This process occurs for each person booked, 
either alien or citizen. The technology saves time, improves accurate 
identification of aliens, and gives our state and local partners a 
powerful tool to identify criminal aliens in their custody. This 
technology has already been deployed to 50 jurisdictions to support 
information sharing. This week, ICE will deploy to an additional six 
jurisdictions, all of which are along the southwest border.
    The prevention of re-entry into the U.S. by criminal aliens is an 
important component of the Secure Communities program. ICE's Violent 
Criminal Alien Section, created as a result of Operation Repeat 
Offender, is an initiative by the ICE Office of Detention and Removal 
Operations (DRO) in collaboration with the U.S. Attorney's Offices to 
prosecute dangerous criminal aliens who have been deported at least 
once, yet illegally return to the United States. Once convicted, aliens 
must serve their full federal sentence before they are removed from the 
United States. To assist United States Attorney Offices in handling 
increased prosecutions, ICE has assigned several agency attorneys to 
serve as Special Assistant United States Attorneys.
    ICE continues to identify and remove criminal alien gang members as 
part of Operation Community Shield. Since the program's inception, ICE 
agents working in conjunction with federal, state, and local law 
enforcement agencies have arrested more than 13,000 street gang members 
and associates throughout the country.
    ICE's National Fugitive Operations Program (NFOP) also works to 
reduce the nation's fugitive alien population with an emphasis on 
criminal aliens and aliens who pose a threat to national security and 
public safety. In FY2008, fugitive operations teams were responsible 
for more than 34,000 arrests. To date in FY2009, the teams have 
arrested nearly 6,000 fugitive aliens who are also criminal. Overall, 
our nation's fugitive alien population fell by 37,000 individuals last 
fiscal year.
    ICE dedicates significant resources to obtaining final orders of 
removal. Similarly, the Department of Justice Executive Office for 
Immigration Review employs hundreds of immigration judges and members 
of the Board of Immigration Appeals to adjudicate immigration cases. 
Final orders of removal must be enforced to ensure the integrity of the 
nation's immigration system.

Human Smuggling and Trafficking/Identity and Benefit Fraud
    I recognize that human smuggling and trafficking is an issue of 
great concern for this Subcommittee. I assure you that this has been--
and continues to be--a significant priority for ICE. As you well know, 
criminal smuggling and trafficking organizations are not constrained by 
international borders. They operate in countries of origin, transit 
countries, and destination countries, including the United States.
    ICE proactively investigates groups engaged in human smuggling and 
trafficking by initiating investigations beyond U.S. borders. 
Organizations can charge thousands of dollars to smuggle aliens, 
including unlawful men and women who could pose a threat to the United 
States. ICE works aggressively with non-governmental organizations to 
identify trafficking victims, bring smugglers and traffickers to 
justice, and increase public awareness of modern-day slavery. In 
addition, CBP provides ICE with real time, law enforcement sensitive 
information derived from analysis of travel patterns and the statements 
from aliens that is critical to the progress of several ongoing, 
international alien smuggling investigations.
    ICE succeeds in combating alien smuggling, dismantling trafficking 
organizations and closing avenues for terrorist travel when we work 
with other agencies and turn collective intelligence into action. ICE 
participates in the interagency Human Smuggling and Trafficking Center 
(HSTC), which targets human smugglers, human traffickers, and terrorist 
travel facilitators. The Director of the HSTC is an ICE Supervisory 
Special Agent.
    ICE has identified various methods and routes used by criminal 
networks to smuggle people into the United States. Subsequently, ICE 
and the Department of Justice (DOJ) formed the Extraterritorial 
Criminal Travel (ECT) Strike Force in June 2006 to target such 
smuggling methods and routes. The ECT Strike Force combines 
investigative, prosecutorial, and intelligence resources to target and 
aggressively pursue, disrupt, and dismantle foreign-based criminal 
travel networks. Complementary to the ECT program is the pivotal role 
ICE plays as co-chair of the targeting project of the Interagency 
Working Group on Alien Smuggling. This program facilitates ICE working 
with partners in the intelligence community to identify the most 
dangerous international human smuggling organizations for investigation 
and prosecution-especially those that pose a threat to our national 
security.
    ICE recognizes that combating transnational alien smuggling 
networks does not stop with the arrest and conviction of alien 
smugglers. Indeed, the agency uncovers ties between smugglers who 
illegally bring aliens into the country, and individuals and 
organizations who help aliens obtain benefits through fraud. Just as 
smugglers can earn large fees from aliens who desire assistance in 
crossing the U.S. border, immigration service providers have been known 
to charge aliens substantial sums to prepare and file fraudulent 
applications for visas and other immigration benefits.
    ICE created Document and Benefit Fraud Task Forces (DBFTF) in April 
2006 to combat vulnerabilities exploited by identity and document fraud 
organizations. There are currently 17 located in major U.S. cities 
serving as models for multi-agency cooperation. Within these task 
forces, ICE works with U.S. Citizenship and Immigration Services the 
Department of Labor, the Social Security Administration, the U.S. 
Postal Service, the Department of State, and state and local law 
enforcement agencies.

State and Local Law Enforcement Support
    ICE also continues to expand its partnerships with state and local 
law enforcement under the 287(g) Program, a force-multiplier, which 
gives specially trained officers authorization to perform immigration 
enforcement duties under the supervision of ICE agents and officers. 
ICE has 66 active Memoranda of Agreements (MOA) with law enforcement 
agencies in 23 states. As of May 2009, ICE's 287(g) partners 
encountered more than 109,000 aliens screened for removability.
    Although the program has significant value, the program requires 
more robust oversight. ICE has carefully reviewed the recommendations 
in the Government Accountability Office's (GAO) report, issued in 
January 2009, and concurs with all of the recommendations. ICE takes 
the issue of racial and ethnic profiling seriously. The agency is 
committed to addressing these concerns. To that end, ICE works with the 
DHS Office for Civil Rights and Civil Liberties and all interested 
stakeholders, while also independently and actively monitoring for 
indicia of profiling.
    In the past several years, the 287(g) Program has both grown 
quickly and caught the attention of both media and Congress. ICE is 
currently redrafting the MOA template used to delegate immigration 
authority to state and local partners. One major goal is to align state 
and local initiatives with the priorities of ICE. In addition to the 
template MOA, ICE credentials were issued to state and local 287(g) 
partners and is currently drafting a policy mandating ``refresher'' 
training through ICE for all active 287(g) officers.
    I am requesting an increase of $1 1.6 million for the Office of 
State and Local Coordination (OSLC) to oversee outreach activities for 
ICE Agreements of Cooperation in Communities to Enhance Safety and 
Security (ICE ACCESS) initiatives, which includes the 287(g) Program. 
Increased funding will allow for permanent staff, including those 
dedicated to field oversight, in OSLC, continuation of ICE ACCESS, and 
training and information technology assistance for participants in the 
ICE ACCESS program.

Worksite Enforcement
    The opportunity to work is a powerful magnet that draws many people 
to enter the country illegally. On April 30, 2009, the Department 
released worksite enforcement guidance to our agents in the field, 
marking a clear shift in how ICE now conducts worksite enforcement. The 
goal of the strategy is to (1) penalize employers who knowingly hire 
illegal workers; (2) deter employers who are attempting to hire illegal 
workers; and (3) encourage employers to take advantage of compliance 
tools and best practices. The strategy emphasizes both the criminal 
investigation of employers and the use of administrative tools such as 
Form I-9 audits and civil fines. In addition, ICE will focus on 
employers who undermine the security by employing undocumented workers 
in sensitive industries or at places of critical infrastructure and 
continue to fulfill its responsibility in arresting and processing 
illegal workers encountered during enforcement operations.
    The most effective strategy in curbing illegal employment is 
criminal prosecution, the seizure of assets, and the imposition of 
meaningful civil penalties upon employers who use and profit from the 
labor of unauthorized aliens. ICE has also increased the act of 
debarring employers who fail to comply with the law, which precludes an 
employer from securing work on federal contracts of companies that have 
knowingly hired illegal workers. Since July 2008, 18 companies and 20 
individuals have been debarred. With this approach, ICE intends to 
create an environment of compliance. The agency also proactively works 
with the private sector to train employers who want to avoid unwitting 
violations of the law through valuable compliance tools like E-Verify.
    There should be no doubt that ICE is committed to enforcement. On 
May 26 and 27,2009, the ICE Kansas City office executed 10 federal 
search warrants and eight federal arrest warrants in the investigation 
of Giant Labor Solutions (GLS). ICE agents criminally arrested 
Abrorkhodja Askarkhodjaev, a citizen of Uzbekistan and owner and 
president of GLS, as well as seven other principals and officers of GLS 
and its associated companies. As part of this enforcement operation, 
ICE agents administratively arrested 30 undocumented alien workers. It 
is suspected that some of the workers arrested by ICE may have been 
forced or coerced into working at GLS. If so, then ICE will work with 
DOJ and other federal agencies, including the Department of Labor, to 
pursue all appropriate relief for the workers.

Improved Detention and Detainee Healthcare Oversight
    The reform of the immigration detention system and improvement of 
healthcare and oversight of those individuals in our custody is another 
significant priority for ICE. ICE established the Detention Facilities 
Inspection Group (DFIG) to conduct independent assessment of detention 
facilities used to house ICE detainees. Last year, the DFIG conducted 
reviews of 38 detention facilities used by ICE, making recommendations 
for improving management and maintenance of the facilities in 
accordance with ICE detention standards. The DHS Office for Civil 
Rights and Civil Liberties also conducts independent investigations 
regarding conditions of detention, and partners with ICE to improve 
conditions and develop or revise policy, which has resulted in the 
identification of deficiencies within ICE detention facilities so that 
corrective actions are taken.
    I am requesting an additional $12.4 million to expand the number 
and scope of independent inspections on ICE detention facilities. Such 
an increase in funding will improve the welfare, safety, and living 
conditions of ICE detainees and employees.
    ICE made several key improvements over the past year through the 
Division of Immigration Health Services (DIHS). For instance, 
standardized DIHS Staff and Patient Education training materials were 
developed. DIHS acquired mission-critical medical equipment including 
dental treatment and pharmacy automation capabilities for several 
facilities. Finally, with respect to infectious disease, DIHS developed 
new policies, procedures, and educational and training materials to 
protective our employees.

ADDITIONAL FISCAL YEAR 2010 PROGRAM ENHANCEMENTS
    ICE also requests program enhancements in the following key areas:
        Co-Location of ICE Facilities: A total of $92 million is 
        requested to fund the second year of the ICE-wide co-location 
        strategy to consolidate ICE personnel and operations scattered 
        across multiple buildings in select metropolitan areas. The 
        intent is to improve operational efficiency and long-term cost 
        savings because 72 percent of ICE leases will expire over the 
        next five years. If ICE remains in its current existing space 
        and renews existing leases, ICE will incur an estimated 
        increase of $69 million between FY2011-FY2013 over current 
        lease costs.
        Information Technology Improvements: Total funding of $91.4 
        million is requested for the following:
                Atlas Infrastructure ($9 million): The request for 
                Atlas Infrastructure, which is the information 
                technology foundation on which ICE applications 
                operate, will be used to plan, schedule, develop and 
                implement the replacement of many legacy ICE area 
                networks; modernize an additional 290 ICE sites with 
                new file and print servers; complete the integration of 
                22 data collection systems into one database; and 
                oversee the migration of ICE information technology 
                assets from the Department of Justice Data Centers to 
                the DHS Data Centers.
                <bullet> Detention and Removal Operations Modernization 
                (DROM) ($22 million): Funding is requested for 
                improvements to the system of detaining and removing 
                illegal immigrants. The funds will be dedicated to 
                developing and deploying the Detainee Location Tracking 
                Module as part of the Bed Space and Transportation 
                Management System, expanding the ICE Data warehouse 
                data capacity and reporting capability to support the 
                Office of Detention and Removal Operations (DRO) 
                information technology data, and expanding Web services 
                to all the Electronic Travel Document application to 
                communicate with other internal or external 
                applications.
                Law Enforcement Systems Modernization ($40 million): 
                This initiative case management (including the TECS 
                Modernization project), information sharing, and 
                operational support service projects that will improve 
                access to law enforcement information.
                ($20.4 million): This request will address the Division 
                of Immigration Health Services infrastructure 
                deficiencies and begin the design and development of an 
                electronic health records system, which will allow 
                real-time reporting of detainees' medical information.
                T3Data Center Migration: A total of $33.9 million is 
                requested to assist migrating data center operations, 
                active on-line data, and other information technology 
                assets from two Department of Justice (DOJ) data 
                centers and multiple processing centers to two new DHS 
                data centers.

CONCLUSION
    The President's FY2010 budget request for ICE reflects the 
Department's ongoing commitment and the dedication of ICE employees to 
protect the American people. I am committed to working with this 
Subcommittee and Congress to address the significant challenges we face 
in our efforts to enforce of our nation's immigration and customs laws.
    I thank the Subcommittee for its support of ICE and our law 
enforcement mission. Your support is vital to the work of ICE. Your 
continued interest and oversight of our actions is important to the men 
and woman at ICE, who work each day to ensure the safety and security 
of the United States. I look forward to a long and productive 
relationship with this Subcommittee.
    I would be pleased to answer any questions you have at this time.

    Ms. Sanchez. Thank you, Mr. Secretary.
    Now we will have our commissioner, Mr. Ahern, for 5 minutes 
or less.

 STATEMENT OF JAYSON AHERN, ACTING COMMISSIONER, U.S. CUSTOMS 
     AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Ahern. Good morning, I certainly thank you very much 
for the opportunity to be here today. And Chairwoman Sanchez, 
ranking member Souder and to all those other members, CBP has a 
great story to tell, and much of the credit for our success is 
actually due to the Congress.
    Fortunately over the last few years, since 2004 our budget 
has been doubled, and we thank the Congress for that, and our 
agency has grown to over 53,000. It will actually be 55,000 by 
the end of this year, significant growth for protecting the 
country's front line.
    Our 2010 budget request actually includes over $10 billion 
in appropriated resources and over $1.3 billion in user fees 
because we do have a lot of fees that are funded by 
international travel. And this will support our operational 
missions for the organization. It shows an increase of $229 
million over our 2009 level.
    The 2010 budget, a couple of key initiatives to highlight, 
it certainly shows some of the evolving concerns we have with 
our border security. The southbound efforts we have for 
firearms, weapons going to Mexico, there is $26.1 in initiative 
for that, as well as continuing to focus on the northern border 
and deployment of technology there to meet the risk in the area 
on that northern border, given its remoteness, $20 million for 
northern border technology to continue to build on the 
technology suite we have up there.
    Certainly the accomplishments, because of the support of 
Congress we have actually continued to use the effective 
combination of personnel, technology infrastructure to gain 
more effective control of our borders.
    And ranking member Souder talked about miles of effective 
control, and we continue to build more miles of effective 
control. We have over 700 on the southwest border, and we will 
continue to build as we go forward.
    Certainly the apprehensions along our ports of entry are 
going down substantially. I will be happy to talk in more 
detail about those on the southwest border.
    Also as far as the drug interdiction mission of our 
organization, oftentimes since the creation of the Department 
of Homeland Security, it has been stated we perhaps might have 
overlooked our drug interdiction mission over the last few 
years. I would respectfully state that is not the case.
    And when you take a look at the 15 million pounds of drugs 
we have actually seized in the last few years, this is a 
significant accomplishment of critical note to show what we are 
seeing in the southwest area, specifically, a 49 percent 
increase in marijuana interceptions coming across versus last 
fiscal year-to-date.
    So that is a significant increase, and actually those 
numbers, just to put the percentages in perspective, that is 
2.2 million pounds thus far this year. That is considerable.
    With any organization, particularly given the mission we 
have border security, our resources. Our most precious 
resources are people. Certainly continuing to build upon our 
resources, we now will have by the end of this year over 20,000 
CBP officers at our ports of entry and will actually achieve a 
number later this year for 20,000 border patrol agents at our 
ports of entry.
    These two primary mission of entities that we have, or 
operational entities of our mission, our front line personnel 
will be complemented by over 1,000 pilots and vessel commanders 
to make sure that our air and marine division continues to be 
as robust as it needs to be in some of these areas between the 
ports of entry.
    And I think it is also important to recognize one of the 
other missions we have in the organization, and that is 
protecting the American industry or domestic industry of 
agriculture products.
    And we actually now have over 2,300 agricultural 
specialists that we have been able to afford to bring on board 
to protect the American food supply. That is a critical part of 
our mission with the organization.
    Technology, making sure as we continue to deploy not only 
SBnet-type technology but the suite of sensor and bubble 
surveillance systems, as well as our UAS' along the border. 
Those are the key things we continue to deploy.
    And at our ports of entry more large scale x-rays, 
radiation portable monitors, things of that nature to make sure 
that we maintain not only the security that is necessary, but 
the flow of legitimate trade and commerce coming across those 
borders air, land and sea.
    Continuing to upgrade and modernize our ports of entry, we 
certainly thank the Congress for the funding that we were able 
to receive through the stimulus package. That certainly will be 
used not only to modernize and increase the security of our 
facilities, but also to continue the efficient movement of 
people and goods coming across those borders, as well on the 
north and south, so we appreciate the support on that.
    I know it is a topic of interest, the number of border 
patrol agents that we actually have deployed to the northern 
border, and do we have the right balance? That is a key 
feature. We will actually have 1,845 border patrol agents on 
the northern border.
    That may not seem enough when you compare it to the 18,000 
that we will have at the end of the year on the southern 
border, but it is a 700 percent increase over our strength that 
we had in the time around 9/11. You know, we will continue to 
grow that number as we look to achieve 2,212 by the end of 
fiscal year 2010.
    Our organization also has deployed other resources to the 
northern border beyond just the border patrol agents, and that 
is opening five air branches and marine units as well as 
deploying our UAS' in the environment.
    The southern border, just to close on that, will continue 
to be a focus as we go forward. We will be happy to take 
questions about the initiative we have in the funding package 
for the additional technology for license plate readers, as 
well as the deployment of personnel to combat the threat of 
movement of currency, which since the initiative started in 
March, there has been over $13 million in cash seized, joint 
participation with ICE in those very critical focus outbound 
operations, as well as weapons, going forward. Thank you very 
much.
    [The statement of Mr. Ahern follows:]

                   Prepared Statement of Jayson Ahern

    Chairwoman Sanchez, Congressman Souder, esteemed members of the 
Subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
particularly the tremendous dedication of our men and women in the 
field both at and between our ports of entry.
    I want to begin by expressing my continuing gratitude to Congress 
for its enduring support for the mission and people of CBP. It is clear 
that the Congress is committed to providing us the resources we need in 
order to increase and maintain the security of our borders. We 
appreciate your efforts and assistance.
    I would also like to thank you for your support for provisions in 
the American Recovery and Reinvestment Act of 2009, which provided $680 
million to CBP for greatly needed improvements to our aging 
infrastructure, and for the addition of new technology at our nation's 
borders. These funds will support planning, management, design, 
alteration, and construction of CBP-owned land ports of entry; 
procurement and deployment of non-intrusive inspection system; 
expedited development and deployment of border security technology on 
the southwest border; and for the procurement and deployment of 
tactical communications equipment. In addition, the bill included $300 
million for the construction and repair of land ports of entry owned by 
the General Services Administration (GSA). Secretary Napolitano has 
made clear that we are to move swiftly and with great transparency as 
we put these investments to use.
    CBP is the largest uniformed, Federal law enforcement agency in the 
country. We station over 20,000 CBP officers at access points around 
the Nation, including at air, land, and sea ports. As of mid-May, we 
have deployed over 19,000 Border Patrol agents between the ports of 
entry. These forces are supplemented with 1,058 Air and Marine agents, 
2,318 agricultural specialists, and other professionals. These 
personnel are key players to the implementation of Secretary 
Napolitano's Southwest Border Security Initiative.
    I am pleased to report that CBP continues to perform all of our 
missions successfully, which include stemming the flow of illegal drugs 
and contraband, protecting our agricultural and economic interests from 
harmful pests and diseases, protecting American businesses from theft 
of their intellectual property, enforcing textile agreements, tracking 
import safety violations, regulating and facilitating international 
trade, collecting import duties, facilitating legitimate travel, and 
enforcing United States trade laws. CBP facilitates lawful immigration, 
welcoming visitors and new immigrants while making certain those 
entering this country are indeed admissible, and taking appropriate 
action when an individual fears being persecuted or tortured if 
returned to their home country At the same time, our employees maintain 
a vigilant watch for terrorist threats. In fiscal year 2008, CBP 
processed more than 396 million pedestrians and passengers, 122 million 
conveyances, 29 million trade entries, examined 5.6 million sea, rail, 
and truck containers, performed over 25 million agriculture 
inspections, apprehended over 720 thousand illegal aliens between our 
ports of entry, encountered over 220 thousand inadmissible aliens at 
the ports of entry, and seized more than 2.8 million pounds of illegal 
drugs.
    We must perform our important security and trade enforcement work 
without stifling the flow of legitimate trade and travel that is so 
important to our Nation's economy. These are our twin goals: border 
security and facilitation of legitimate trade and travel.

Border Security Between the Ports of Entry
    The primary goal of our strategy between the ports of entry is to 
gain effective control of our Nation's borders. Effective control is 
achieved when a Chief Patrol Agent determines that agents deployed in a 
given area consistently: detect illegal entries into the United States, 
assess and classify any threats associated with the illegal entries, 
respond to the area, and bring the situation to a successful law 
enforcement resolution.
    During Secretary Napolitano's congressional hearing a few weeks 
ago, she explained the importance of having a border security strategy 
that incorporates the elements of effective control. CBP establishes 
operational control through a balanced combination of technology, 
personnel, and tactical infrastructure allowing Border Patrol agents to 
confront the criminal element. Secretary Napolitano often refers to 
this strategy as the ``three-legged stool.'' One of these legs cannot 
provide operational control by itself. The mix of these three elements 
will vary depending on the challenges of the focus area. Technology 
allows us to detect the entries and to assess and classify the threat. 
Personnel provide the response to confront the criminal element. 
Tactical infrastructure cludes--supports the response by either 
providing access or extending the time needed for the response by 
deterring or slowing the criminal element's ability to easily cross the 
border and escape.
    As of May 31,2009, we have determined that 894 miles of border are 
under effective control. This includes 697 miles along the southwest 
border, 32 along the northern border and 165 in the coastal regions. 
Across the southwest border, we have made significant strides in 
increasing our situational awareness and tactical advantage over those 
seeking to violate our laws. With increased situational awareness, we 
can better understand where we have the highest threats and 
vulnerabilities, and assess where we need to apply our resources. 
Situational awareness also enables our agents to perform their jobs 
more safely and more effectively. This is especially critical during 
times such as these where we are experiencing higher levels of violence 
at our Nation's borders.
    Between the ports of entry, the Border Patrol Sector Chiefs are the 
field commanders, and CBP personnel involved in border security include 
Border Patrol Agents and Air and Marine Interdiction Agents. Personnel 
in adequate numbers are highly effective resources. They can observe 
and therefore provide for the type of situational awareness that is 
necessary for operational control. Unique among the elements of the 
three-legged stool, personnel also have the capacity to respond. 
Personnel are highly effective and flexible, but the number of 
personnel required to perform the entire border security mission would 
be prohibitive if they were not properly augmented by tactical 
infrastructure and technology.
    Tactical infrastructure includes--among other things--pedestrian 
fence, vehicle fence, roads, and lighting. Tactical infrastructure 
supports CBP's ability to respond in several ways. Fence, for example, 
is a fixed resource that provides a constant and continuous effect. I 
wish to be very clear--fence alone does not and cannot provide 
effective control of the border. It does, however, deter and delay 
illicit cross-border incursions. This continuous and constant ability 
to deter or delay is what we refer to as ``persistent impedance.'' 
There are areas of the border where we have concluded that we must have 
persistent impedance in order to achieve operational control, because 
we must at least delay attempted illicit incursions. These delays buy 
time for our agents to respond. This is critical in areas near cities, 
for example, where illicit border crossers can easily blend into the 
population before we interdict them. It is also critical in areas where 
vehicles reach nearby roads faster than we could respond without 
persistent impedance.
    Technology is an important leg of the stool. Although some refer to 
technology as a ``virtual fence,``technology does not have the 
persistent impedance capability of a real fence. It does, however, 
provide timely and accurate information that physical infrastructure 
could not. Between the ports of entry, technology includes sensors, 
command and control systems, and communications. Technology is a 
powerful force multiplier because it has tremendous capability to 
provide the situational awareness that is a precursor to operational 
control. Sensors can ``watch'' the border continuously, guided by 
appropriate command and control systems. These command and control 
systems can also help sort the data coming from the sensors so that our 
agents have very quick access to the most critical information. 
Technology also supports response capability. With accurate information 
to identify and classify illicit incursions, agents have many more 
options about how and when they will respond to the incursion. Improved 
communications capability also supports response by ensuring our agents 
will be properly directed and coordinated.
    Over the past year, we have made significant strides in 
strengthening all three legs of our stool. As of mid-May, we had 19,065 
Border Patrol Agents on-board. Of the 661 miles of southwest border 
identified by CBP as requiring persistent impedance, fencing has been 
constructed along 627 miles (as of May 22nd). Most of the remaining 
mileage is under construction and will be complete this summer. With 
respect to technology, we have purchased 40 mobile surveillance systems 
(MSSs) and deployed them to the northern and southwestern borders. 
These MSSs provide a flexible solution to give our operators radar and 
camera coverage in high priority areas, and serve as a gap-filler while 
we develop and deploy more permanent technology solutions. Later in the 
testimony, I will provide additional detail about our vision for those 
more permanent solutions.
    The northern border of the United States continues to be important 
to our national security. In fact, one of the first directives that 
Secretary Napolitano issued shortly after being confirmed was to review 
our strategies, plans and operational capabilities along the northern 
border. As we have designed programs to afford greater protection 
against the entry of dangerous goods and people at all our borders, we 
have also focused increased attention on specific needs along the 
Canadian border.
    For instance, the Integrated Border Enforcement Team (IBET) 
program, encompassing 15 regions along the northern border, is a multi-
faceted law enforcement initiative comprised of both Canadian and 
American partners. The IBET core agencies include CBP, the U.S. Coast 
Guard (USCG), Immigration and Customs Enforcement (ICE), the Canada 
Border Services Agency (CBSA), and the Royal Canadian Mounted Police 
(RCMP). This longstanding, bi-national partnership has enabled the 
participating law enforcement partners to share information and work 
together daily with other local, State, and provincial enforcement 
agencies on issues related to smuggling, organized crime, the 
vulnerabilities associated with unguarded roads, and other criminal 
activities along the U.S.-Canada border at and between the ports of 
entry.
    In addition, DHS developed the Border Enforcement Security Task 
force (BEST) concept to coordinate the efforts of ICE, CBP, and DHS 
intelligence personnel working cooperatively with foreign, Federal, 
State, and local law enforcement agencies to take a comprehensive 
approach to disrupt and dismantle criminal organizations. In early 
2008, the first northern border initiated operations in Blaine, 
Washington and Buffalo, New York, The BESTs complement and increase the 
effectiveness of the IBETs by augmenting their investigative 
capability.
    We have also increased the number of Border Patrol agents deployed 
to the northern border. Our plans call for 1,845 agents by the end of 
this year, and 2,212 by the end of next year. Our Air and Marine 
organization has deployed significant resources to the northern border, 
including the recent deployment of an Unmanned Aerial System (UAS) 
based in Grand Forks. The DHS Science and Technology Directorate has a 
number of research projects designed to evaluate technology 
opportunities tailored to the northern border environment that will 
advise our plans in the future. Our Secure Border Initiative (SBI) 
program began implementing a measured deployment of fixed and mobile 
sensors in our Buffalo, Detroit, and Swanton sectors starting this 
spring.

Travel Facilitation at the Ports of Entry
    CBP welcomes nearly 400 million travelers into the United States 
annually. While security will always be primary mission--we also 
continue to strive to make the process of entering the U.S. more 
streamlined, user-friendly and understandable.
    In past hearings, we have highlighted our initiatives to streamline 
the processing of travelers through our land ports of entry and to 
extend security beyond our physical borders. Those efforts continue and 
will continue for the future. CBP implemented the Western Hemisphere 
Travel Initiative (WHTI) secure document requirements at land and 
seaports on June 1, 2009, on time and on budget. All the project pieces 
were carefully planned and executed in advance-Radio Frequency 
Identification (RFID) enabled documents, new software technology for 
the vehicle primary lanes, and the RFID physical infrastructure at our 
high volume land ports. CBP continues to remain practical and flexible 
in our implementation approach of the WHTI documentary requirements.
    Efficient and effective land border primary operations require a 
well-integrated strategy and as well as synchronized and coordinated 
technologies, processes, and infrastructure. Building upon the initial 
success of the WHTI deployment, CBP has identified other critical 
process areas to integrate, facilitate, and enhance border security 
such as our commerical--passenger dual use lanes, pedestrian 
processing, and traffic management strategies.
    We are continuing to enhance and expand our trusted traveler 
programs, which expedite the processing of known, low-risk travelers so 
that we can better focus our attention on higher risk, unknown 
travelers. Global Entry is another program to expedite processing of 
low-risk travelers-in this case, United States citizens and Lawful 
Permanent Residents. This program is a pilot that we are testing in 
select airports. It provides automated kiosks to validate 
identification by matching travel documents with biometrics.
    The Importer Security Filing interim final rule, also known as 
``10+2'' went into effect earlier this year and has already yielded 
some promising results. This program will provide CBP timely 
information about cargo shipments that will enhance our ability to 
detect and interdict high risk shipments. Comments on aspects of this 
rule were accepted until June 1, 2009, and implementation using 
informed compliance will continue until January of next year. This 
initiative will augment CBP's efforts to review 100 percent of all 
cargo before it arrives in the United States using advanced cargo data, 
automated targeting and risk assessment systems, intelligence, and 
cutting edge inspection technologies such as large scale X-ray, gamma 
ray machines, and radiation detection devices. Shipments determined by 
CBP to be high risk are examined either overseas as part of our 
Container Security Initiative or upon arrival at a U.S. port. 
Additionally, over 98% of all arriving maritime containerized cargo is 
presently scanned for radiation through radiation portal monitors.
    The infrastructure and facilities supporting many of our ports of 
entry are outdated and aging. As mentioned earlier, the commitment 
within the American Recovery and Reinvestment Act by President Obama, 
Secretary Napolitano, and Congress to enhance and improve the ports of 
entry is an important step to overhauling CBP's infrastructure. We 
believe these funds will allow us to accelerate our upgrades, which 
will in turn increase our quality of service, throughput, and overall 
performance at the ports.
    Technology is also a key enabler for our operations at the ports of 
entry. A key focus is on the area of Non-Intrusive Inspection. The 
ability to non-intrusively screen and examine cargo and conveyances 
will allow us to interdict weapons of mass effect and other contraband 
more effectively while facilitating the flow of legitimate trade and 
travel.

Southwest Border Security Initiatives
    DHS continues to address cartel violence in Mexico through targeted 
initiatives and adept coordination with U.S. Federal, state, local, 
tribal, and Mexican authorities. In an effort to further facilitate 
these partnerships, Secretary Napolitano announced the appointment of 
Alan Bersin as DHS Assistant Secretary for International Affairs and 
Special Representative for Border Affairs. The recently announced 
Southwest Border Security Initiative, U.S./Mexican Counter Drug 
Initiative, and 2009 National Southwest Border Counternarcotics 
Strategy all rely on this coordination. Through these initiatives, the 
Department will increase personnel at the border, position technology 
at strategic locations, and provide assistance for Mexican security 
needs through resources and partnerships. The recent Merida Initiative 
is a prime example of this kind of assistance. In the future, DHS will 
work closely to help Mexico build capacity for its long term border 
security needs. Taken as a whole, these initiatives aim to crack down 
on the illegal activities that fuel the drug war in Mexico.
    In March, DHS, the Department of Justice (DOJ) and Department of 
State announced the President's Southwest Border Security Initiative, 
which involves the deployment of hundreds of new personnel and enhanced 
intelligence technology to maximize capabilities and strengthen 
coordination with other federal law enforcement entities such as DOJ, 
the Bureau of Alcohol, Tobacco, Firearms and Explosives, the DEA, and 
the FBI, as well as State, local, tribal, and Mexican law enforcement 
authorities. With regard to CBP, the President's initiative:
    Initiates 100 percent southbound rail scanning--CBP previously did 
not screen any of the cargo traveling by rail from the United States 
into Mexico; it is now scanning all rail cargo for weapons, ammunition, 
and currency. Existing non-intrusive inspection equipment is being used 
to detect contraband in cargo on each of the eight rail crossings on 
the southwest border.
    Adds Border Patrol Agents at POEs--CBP is placing up to 100 Border 
Patrol agents at southwestern ports of entry to assist the Office of 
Field Operations (OFO) and to bolster outbound inspections from the 
U.S. into Mexico in order to detect arms and bulk-cash smuggling.
    Adds Mobile Response Teams--Three Mobile Response Teams of 25 CBP 
officers each are periodically deploying to the southwest border to 
participate in focused operations developed to combat arms and bulk 
cash smuggling.
    Augments Search Technologies--An additional two low-energy mobile 
x-ray units have been moved to the southwest border, in addition to the 
seven already present, to help CBP identify anomalies in passenger 
vehicles.
    Engages Canine Teams--A total of twelve teams of ``cross-trained'' 
canines -trained to identify both firearms and currency -have been 
deployed to the southwest border.
    Adds License Plate Readers--Outbound lanes currently equipped with 
license plate readers will receive upgraded license plate reader 
technology to improve CBP's ability to identify the vehicles of known 
or suspected smugglers of cash, weapons, drugs, or persons. This 
information is shared with other law enforcement agencies through EPIC 
and the OCDETF Fusion Center.
    Enhances Operation Stonegarden Grant Funding on the Border--Grant 
guidance for the remaining balances in Operation Stonegarden from 
fiscal year 2006 to fiscal year 2008 will be modified to enhance 
current State, local, and tribal law enforcement operations on the 
southwest border. The new guidelines will expand the scope of what the 
funds can be used for, freeing up to $59 million for State, local, and 
tribal law enforcement on the border to pay for additional law 
enforcement personnel, operational overtime expenses, and travel or 
lodging for deployment to the southwest border.
    Actively Engages State, Local, and Tribal Law Enforcement--DHS is 
aggressively reaching out to law enforcement in border communities, 
recently conducting a firsthand tour of State and local law enforcement 
operations along the southwest border and leading bi-monthly conference 
calls with chiefs of police and sheriffs in a classified setting.
    We have already begun to feel the impact of this initiative. 
Between March 12 and June 1, CBP seized over $13.2 million in outbound 
currency. On May 10, CBP seized $200,000 in U.S. currency during 
outbound inspections in Progreso, Texas, when officers detected 
anomalies while performing a routine X-ray scan on a pickup truck. 
Following a canine inspection, the officers discovered 18 heat-sealed 
packages of U.S. currency hidden in a roaster oven inside the vehicle. 
In addition, on May 2, CBP officers and ICE agents in Laredo, Texas, 
seized more than $302,000 in American currency hidden in boxes of 
detergent during a joint outbound operation.
    The funding for these efforts will be from budget realignments and 
reprogramming from lower priority activities. The President's fiscal 
year 20 10 budget continues to support these efforts by providing 
funding to combat southbound firearms and currency smuggling.

Support of U.S./Mexican Counter-Drug Initiatives
    A key and growing area of emphasis involves DHS's role in 
interdicting the illegal flow of weapons and currency into Mexico. The 
recent surge in violence in the interior and border cities of Mexico 
poses a significant threat in Mexico and is a serious concern of the 
United States. Secretary Napolitano has tasked all DHS components, 
including CBP, to examine how we can reasonably increase our 
enforcement activities in an effort to identify and interrupt efforts 
to smuggle weapons and bulk cash shipments into Mexico.
    A large portion of illegal drugs consumed in the United States pass 
through Mexican territory and territorial seas. Illicit trafficking 
profits flow back to Mexican drug trafficking organizations across our 
common border. The Mexican Government's ability to confront its drug 
trafficking industry and its willingness to cooperate with U.S. efforts 
directly affect the impact of any southwest border activities.
    CBP works with its partners in the Drug Enforcement Administration 
and the High Intensity Drug Trafficking Area centers to expand the 
National License Plate Reader (LPR) initiative to exploit intelligence 
on drug traffickers and drug trafficking organizations. The LPR 
initiative will utilize established locations to gather information 
regarding travel patterns and border nexus on drug traffickers to 
enable intelligence driven operations and interdictions. While the LPRs 
are currently deployed along the southwest border, the program will be 
expanded to encompass the northern border and other areas throughout 
the country in the near future. Its capabilities can be utilized to 
assist other law enforcement entities in their investigations of their 
high value targets, by combining existing DEA and other law enforcement 
database capabilities with new technology to identify and interdict 
conveyances being utilized to transport bulk cash, drugs, weapons, and 
other illegal contraband.
    In a spirit of cooperation, CBP has established positions at the El 
Paso Intelligence Center (EPIC), the Organized Crime Drug Enforcement 
Task Force (OCDETF) Fusion Center, and the DEA Special Operations 
Division. These initiatives enhance interaction with the Intelligence 
Community (IC) and law enforcement agencies to more effectively 
facilitate the collection, analysis, and dissemination of actionable 
drug-related intelligence. CBP has also established two full-time 
positions at the National Gang Intelligence Center (NGIC) and has 
partnered with the National Gang Targeting, Enforcement and 
Coordination Center (Gang TECC).
    Additionally, CBP's Office Intelligence and Operations Coordination 
established a National Post Seizure Analysis Team (PSAT) at the 
National Targeting Center-Cargo, and is in the process of establishing 
Intelligence Operations Coordination Centers (IOCC) with the first one 
under construction in Tucson, Arizona. The IOCCs will make CBP a more 
fully integrated, intelligence driven organization by linking 
intelligence efforts and products to operations and interdictions.
    CBP views the border as a continuum of activities with the physical 
border being the last line of defense, not the first. As such, 
effectively securing the border requires attention to processes that 
begin far outside U.S. borders, occur at the border, and continue to 
all interior regions of the United States. Consequently, CBP's 
strategies address the threats and challenges along the entire 
continuum. For this reason, CBP takes part in various initiatives, 
including Operation Panama Express, which relies on strategic 
partnerships.
    Operation Panama Express is an OCDETF initiative, executed through 
OCDETF Co-located Strike Forces, in which CBP participates with the 
Drug Enforcement Administration (DEA), Federal Bureau of Investigation 
(FBI), U.S. Immigration and Customs Enforcement, Internal Revenue 
Service-Criminal Investigations Division, the U.S. Coast Guard, and 
multiple State and local law enforcement agencies in a multi-agency 
international drug flow investigation that combines detection and 
monitoring, investigative, and intelligence resources to provide 
actionable intelligence to Joint Interagency Task Force-South (JIATF-S) 
operations to interdict the flow of cocaine from northern South America 
to the United States. JIATF-S interdiction operations in the transit 
zone, supported by CBP P-3 Airborne Early Warning, CBP P-3 Tracker 
aircraft, and Coast Guard HC-130, along with U.S. Coast Guard surface 
vessels, interdict large, sometimes multi-ton, shipments before they 
can be split into smaller loads for movement across the southwest 
border over multiple routes and distributed to U.S. cities, towns, and 
small communities. Interdicting these large loads in the Transit Zone 
supports the Southwest Border and Merida Initiatives by preventing 
illicit drugs from entering the distribution networks through Central 
America and Mexico. This deprives the violent Drug Trafficking 
Organizations of the product and subsequent cash flow that supports 
their operations.
    CBP is also responsible for detecting and preventing unauthorized 
incursions into the United States. Toward this end, CBP continues to 
work with the Mexican Government in the development of increased law 
enforcement surveillance and interdiction capabilities. Detection of 
U.S./Mexican border air intrusions is essential to effective 
interdiction operations along our borders with Mexico. The primary 
means of detection is a large radar network, monitored at the Air and 
Marine Operations Center (AMOC) in Riverside, California. Information 
is fed to the AMOC through a network of airborne early warning, 
aerostat, Federal Aviation Administration (FAA), and ground based radar 
systems. Both CBP and Mexican Law Enforcement Personnel stationed at 
the AMOC detect aircraft ``short landings``and border penetrations and 
coordinate CBP and Mexican interdiction assets to intercept, track, and 
apprehend smugglers as they transverse the U.S./Mexico border.
    The Government of Mexico maintains a strong commitment to 
interdiction. CBP will continue to assist the Government of Mexico in 
its counter-drug effort, including Command, Control, Communications, 
and Information support.

Intelligence and Operational Coordination
    CBP continues to evolve into a more integrated, intelligence driven 
organization and partner in the DHS Intelligence Enterprise. We are in 
the process of establishing a more robust field organization by means 
of several programs. For example, the CBP Office Intelligence and 
Operations Coordination is in the process of developing capabilities 
which will integrate CBP intelligence and operational elements for more 
effective command and control, mission deployment, and allocation of 
resources.
    Intelligence gathering and predictive analysis require new 
collection and processing capabilities. CBP is developing the 
Analytical Framework for Intelligence (AFI), a set of data processing 
tools that will improve the effectiveness of CBP and other DHS analysts 
in detecting, locating, and analyzing terrorist networks, drug 
trafficking networks, and similar threats. CBP has instituted training 
for Border Patrol Agents and CBP Officers to better recognize 
indications of human trafficking, hosted a Human Trafficking Symposium 
in 2008, and has developed a Human Trafficking Public Awareness 
Campaign which includes the use of informational posters located in 
public areas of U.S. ports-of-entry and Human Trafficking Information 
Cards that are designed to raise the awareness of the both the 
traveling public and potential victims to the crime of human 
trafficking These intelligence and operational coordination initiatives 
complement the Secure Border Initiative's (SBI) technology programs and 
will be shared with other agencies, including--but not limited to--the 
Drug Enforcement Administration.

Secure Border Initiative (SBI)
    The Secure Border Initiative (SBI), as currently configured, 
contributes to two of the three legs of our border security stool.
    As I previously mentioned, the Border Patrol identified 661 miles 
along the southwest border where persistent impedance was a necessary 
condition for effective control. In those areas, the only cost-
effective options to provide persistent impedance are physical 
infrastructure or personnel. Within the miles identified by the Border 
Patrol, our analysis shows that technology is not an adequate 
substitute. Technology might well allow us to watch illicit border 
crossers blend into the population or travel to a route of egress--but 
it does not delay or impede the crossers long enough to enable an 
effective response.
    Going forward, the BSFIT appropriation, which is managed by the SBI 
office, will continue to dedicate funding to additional tactical 
infrastructure programs. Much of the focus, however, will be on high 
priority infrastructure projects other than fence--for example, roads 
and lighting. With the fence projects largely complete, we will be 
increasing our emphasis on technology within the SBI program--SBInet.
    Our recent activity has been focused on development of the SBInet 
Block 1 system, which we are deploying this year to two locations in 
Arizona known as Tucson-1 and Ajo 1, totaling about 53 miles of border. 
After completing System Qualification Test (SQT) last December, while 
CBP had confidence in the overall system design, there were some open 
issues that needed to be resolved prior to giving the go ahead to move 
forward with these initial operational deployments. The SBInet team 
worked with Boeing to resolve the issues from SQT and complete the 
appropriate analysis in order to provide adequate confidence in the 
system design. This analysis suggested that, to a reasonable level of 
engineering confidence, the system meets its design requirements. 
Further confirmation will require actual deployment and checkout of the 
system in the real operational environment -an opportunity that will be 
provided with the deployment of the system to Tucson- which began on 
May 4. The deployments of Tucson-1 and Ajo-1 will lead to a more formal 
operational test and assessment by the Border Patrol to determine how 
well the system meets the agents' needs. The results of the engineering 
tests and the Border Patrol's operational testing will then advise 
future changes and enhancements to the system, as well as a decision to 
deploy the system to additional locations.

FY2010 Budget
    The Department of Homeland Security's Budget will strengthen 
current efforts that are vital to the nation's security, bolster DHS' 
ability to respond to emerging and evolving threats, and allow DHS to 
embrace new responsibilities in order to secure the nation. This budget 
puts forward critical investments in the protection of the American 
people. With these priorities in place, the budget expands activities 
that secure our nation's borders.
    A responsible budgeting process not only identifies funding needs, 
but also ways to save taxpayer dollars. To this end, Secretary 
Napolitano recently launched an Efficiency Review initiative. This 
program is committed to improve efficiency and streamline decision 
making through a series of agency wide initiatives ranging from 
eliminating non-mission critical travel to acquiring enterprise 
licenses for commonly used software, which are collectively expected to 
lead to millions of dollars in cost avoidance across the department.
    CBP's fiscal year 2010 budget reflects $10 billion in appropriated 
resources and $1.4 billion in funding acquired through user fees, for a 
total of $11.4 billion. The direct appropriated request for fiscal year 
2010 represents an increase of $230 million, or 2.3% over fiscal year 
2009. Highlights of fiscal year 2010 major initiatives are provided 
below:
    Data Center Migrations...............$38.6M (0 FTE)
    Resources are requested to provide a standardized information 
technology (IT) resource acquisitions across DHS Components, and 
streamline maintenance and support contracts, allowing for less complex 
vendor support and expediting response times in the event of an 
emergency. Benefits derived from consolidation are enhanced DHS IT 
security posture, improved information sharing with stakeholders, and 
increased operational efficiencies over time.
    Combating Southbound Firearms and Currency Smuggling .......$26.1M 
(63 FTE)
    Resources are requested to provide CBP with an enhanced capability 
to combat southbound firearms and currency smugglers through additional 
personnel at and between the ports of entry and along the southern 
border, as well as to continue to expand and maintain the Licensed 
Plate Reader (LPR) program. The combating firearms initiative will add 
44 Border Patrol agents, 65 CBP officers and (CBPOs) 16 support staff 
to expand capacity to effectively combat firearms and currency 
smuggling. The LPR program reads license plates as vehicles pass 
through the ports of entry and automatically queries the TECS database 
for law enforcement information. This information is then passed to the 
officers. Placement of LPR along the southern border will be based upon 
current and developing intelligence.
    Law Enforcement Enhanced Retirement.........$25.0M (0 FTE)
    Public Law 1 10-16 1 established special retirement provisions for 
CBP officers, similar to the retirement coverage for law enforcement 
officers and firefighters. The enhanced retirement package became 
effective on July 6,2008, covering 19,865 employees. Funding was 
included in the fiscal year 2008 and fiscal year 2009 appropriations 
for this purpose. An additional $25 million is requested in fiscal year 
2010 as the final increment to fully fund the new retirement coverage. 
CBP officers face the same risk and challenges as law enforcement 
personnel in other organizations as they are accountable for ensuring 
the security of our nation.
    Western Hemisphere Travel Initiative (WHTI)......$20.9M (0 FTE)
    Resources are requested to continue maintaining and operating the 
WHTI program that supports Departmental efforts to facilitate the 
efficient movement of people at the land border ports. WHTI provides a 
tool to conduct the necessary document authentication at the time of 
crossing and it also accelerates the verification process mandated by 
law to the extent possible with Radio Frequency Identification (RFID) 
Technology and communications technology.
    Northern Border Technology........$20.00M (0 FTE)
    Resources are requested to assist CBP in providing situational 
awareness along the northern border. Funding will also support the 
design, deployment, and integration of surveillance, sensing platforms, 
detection technologies and tactical infrastructure requirements. This 
technology will serve as a force multiplier and increase the 
probability of successful detection. The systems capability will 
provide increased detection and a higher probability of successful 
detection.
    Air and Marine (A&M) Personnel..........................$19.1M (72 
FTE)
    Resources are requested to hire 68 pilots, 20 marine, and 56 
support personnel. These positions are necessary for A&M to achieve 
maximum compliance with strategic goals and objectives and to support 
Border Patrol agents on the ground. During fiscal year 2010, A&M plans 
to continue the expansion of its capabilities across the northern and 
coastal border and place heavy emphasis on the maritime requirements 
along the southeast/Carribbean borders.
    Import Safety and Trade Enforcement...................$9.3M (52 
FTE)
    Resources are requested to hire 12 scientists, 1 paralegal, 34 
international trade specialists, 32 auditors, 10 attorneys, 3 import 
specialists and 1 1 support personnel to implement the Action Plan on 
Import Safety developed in response to Executive Order 13439. The 
increase of personnel will offer an optimal mix of trade activities and 
resources that allow CBP to meet the growing demand in trade volume, 
meet CBP's mission of enforcing trade laws and collecting revenue, 
achieve executive management goals and objectives for the trade 
mission, align activities with the appropriate skill levels, leverage 
efficient gains from technology process improvements, and combat risks 
inherent in priority trade areas.
    Cyber Security............$5.0M (0 FTE)
    Resources are requested to provide continuous Top Compartmented 
Information and collateral classified processing capabilities within a 
``Focused Operations``branch that will provide tactical cyber 
intelligence of ongoing threats to CBP and DHS while also providing 
skilled forensics experts capable of staffing a DHS/CBP Digital Media 
Analysis lab to identify and attribute cyber attacks.
    Global Advanced Passenger Information (API)/Name Record 
(PNR).....$3.0M (0 FTE)
    Resources are requested to continue the program in two key security 
partner countries (including continuing the program for a country 
previously identified in fiscal year 2008), and to implement the 
program in one additional key country, resulting in the deployment of 
three countries by the end of fiscal year 2010. Funding will also 
support start up costs, acquisition of hardware and software, recurring 
information technology costs, training and travel expenses.
    Analyze and Employ Information and 
Intelligence................$2.8M (11 FTE)
    Resources are requested to hire a total of 20 CBP officers and two 
support positions. The 20 CBP officers would be evenly split between 
the passenger and cargo facilities of the National Targeting Center 
providing additional operational and analytical support, which is 
needed in both environments. The increased staffing levels will also 
ensure that NTC continues to provide CBP personnel with immediate 
responses to targeting and research inquiries.

    Conclusion
    Madame Chairwoman and members of the Subcommittee, your continued 
support of CBP has led to many positive outcomes in border security and 
improvements in travel and trade facilitation. The results of your 
recent investments to improve CBP's aging infrastructure will soon be 
evident. The resources we put at our border, whether it is people, 
technology, or tactical infrastructure, enhance our ability to address 
hazards and threats at our Nation's borders.
    We believe the next logical investment is in the workforce itself. 
A very important aspect to our staffing is being sure that our officers 
and agents have the right training, pay, and benefits commensurate with 
their complex and often dangerous work. Over the next year, we will be 
looking closely at ways to ensure we have the ability to recruit, 
retain, and compensate our workforce.
    Thank you for the opportunity to describe our plans for border 
security and to highlight some of our progress to date. With President 
Fiscal Year 2010 Budget Request for the Department of Homeland Security 
and your continued support of DHS and CBP, I am confident that we will 
continue to make tremendous strides in increasing control of our 
borders.
    I look forward to your questions.

    Ms. Sanchez. Thank you, Commissioner, now we will hear from 
our commandant for 5 minutes or less.
    Commandant Allen?

  STATEMENT OF ADMIRAL THAD W. ALLEN, COMMANDANT, U.S. COAST 
             GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Allen. Madam Chairwoman Sanchez and ranking member 
Souder, thank you very much for having us here today. And, 
ma'am, I think you are right. I think this is a historical 
hearing today with the three of us here. And I want to 
congratulate you and the ranking member on your leadership for 
bringing this together.
    Some of the oversight issues in Congress are very 
complicated right now, but I think this is a very important 
hearing. And again, I thank you very much.
    When we talk about Coast Guard operations a lot of folks 
tend to think of the coast, but we are much broader in scope 
and mission than that both geographically and what we do with 
our statutory authorities.
    And as we speak here this morning, we have Coast Guard 
personnel deployed in the Persian Gulf protecting oil platforms 
off of Iraq. The Coast Guard Cutter Boutwell which is 
transiting through the Mediterranean right now just finished a 
historic port call in Turbruq, Libya, the first time a U.S. 
ship had been in there in 40 years working with U.S. African 
command and General Kip Ward.
    We have challenges in the Arctic with increased open water 
up there right now and extensive counter drug operations in the 
Caribbean and in the eastern Pacific, also South America in the 
transit zone where we work very closely with our CBP partners 
and DOD.
    We talk a lot about the southwest border and the issues 
related to drug movement down there. I would tell you a very 
critical southern border is the southern border of Mexico with 
Guatemala and Central America, where the majority of the 
cocaine enters the United States first.
    It is the Central American-Mexican corridor. We work very 
closely as a team on that challenge and moving forward, work 
very close with the combatant commanders. We are very much 
involved right now in issues related to piracy off the Horn of 
Africa and U.S. flagships that are operating there. I would be 
glad to discuss that moving forward as well.
    Madam Chairwoman, as you noted in your opening remarks the 
number one job right now in the Coast Guard is to reposition 
ourselves in the 21st century to be a more flexible, agile 
organization.
    And we are conducting probably the largest modernization 
since the modern Coast Guard was formed in 1915, looking at 
anything from our acquisition organization, and some of the 
issues that were identified several years ago with our deep 
water program, to logistic support and basically reinventing 
the Coast Guard and changing our business practices to make us 
more effective and also to integrate into Homeland Security.
    The demand for our services has never been greater. In 
addition to what is normally thought of as Coast Guard classic 
missions there is a vast expansion of maritime transportation, 
especially the energy realm with oil and off-shore gas 
explorations, movement of liquefied natural gas, which presents 
both safety and security issues for the homeland.
    I talked about more open water in the arctic, we are about 
ready to issue regulations that will bring the towing vessel 
industry under an inspection regime that will place more 
demands on us as well as the safety of the commercial fishing 
vessel industry.
    Taken collectively that is a very broad set of mandates, 
and in addition to that we will continue to support our 
combatant commanders overseas. The current budget that is 
before the Congress right now for 2010 totals $9.96 billion.
    The increment over the prior year enacted level is $284 
million. It is slightly more than current services, keeps us at 
pace for capital replenishment that we vastly need in the Coast 
Guard to replace our aging assets and some modest program 
enhancements.
    On the recapitalization side we are very much concerned 
about the aging high endurance cutter fleet that we have right 
now and their ability to carry out their mission. We want to 
put our fourth national security cutter under contract with 
this budget.
    We want to continue to build out our new patrol boats and 
move response boats out to the field as fast as we can. In 
enhancing safety, security and stewardship we have some modest 
additions in the budget this year that will help us meet some 
of the issues with maritime transportation systems growth.
    We are looking to put more marine inspectors out there to 
increase our safety and inspection capability, and we are also 
working very hard to increase our biometrics at sea capability. 
This is something that we have worked over the last 3 or 4 
years and has resulted in a significant downward trend in 
illegal migration from the Dominican Republic and Puerto Rico.
    We are now deploying that to both waters off Haiti and 
Cuba. Also, looking to improve our command and control with 
$1.1 million that will go into the Charleston Harbor Operations 
Center, which is one of our integrated operations centers which 
we are trying to deal with around the country.
    In closing we have talked about gaining control of the 
southwest border, if you look at the maritime borders of the 
United States including the Great Lakes, Alaska and the rivers 
and the other navigable waterways we have to defend we are 
looking at 95,000 miles. I wouldn't sit here this morning and 
even pretend to tell you that is under control.
    What constitutes an adequate maritime security regime in 
this country moving forward, I think, will be the subject of an 
ongoing discussion, but it will only be met through a one DHS 
posture moving forward.
    And again, I want to congratulate my fellow leaders who are 
sitting here at the table with me today and their willingness 
to work with us on these very difficult problems as we move 
forward. And I look forward to answering your questions this 
morning. Thank you.
    [The statement of Admiral Allen follows:]

          Prepared Statement of Adm. Thad W. Allen, Commandant

INTRODUCTION
    Good afternoon Madame Chairwoman and distinguished members of the 
Committee. Thank you for the enduring support you have shown to the men 
and women of the United States Coast Guard.
    Over the past year, Coast Guard men and women -active duty, 
reserve, civilian and auxiliarists alike--continued a consistent trend 
of delivering premier service to the public. They performed superbly in 
the heartland, in our ports, and while deployed at sea and around the 
globe to safeguard America's maritime interests. They saved over four 
thousand lives; worked closely with Department of Homeland Security 
(DHS) partners to respond to last summer's damaging floods in Missouri 
and North Dakota; conducted 680 domestic icebreaking operations to 
facilitate the movement of more than $2 billion in commerce; operated 
with other federal partners at sea and in the air to prevent nearly 400 
thousand pounds of cocaine from reaching America's borders or streets; 
and continued to serve on the front lines to support Operations Iraqi 
and Enduring Freedom.
    When I became Commandant in 2006, one of my primary objectives was 
to evolve the Coast Guard into a change-centric organization through a 
modernized command, control and logistics support structure, an 
optimized workforce and improved business practices. Building upon the 
Coast Guard's culture and bias for action, we have made significant 
strides toward those goals. As we have carried out our modernization 
efforts, the dedication, expertise and professionalism of your Coast 
Guard has been a constant. The impacts of the global economic crisis, 
climate change, activity in the polar regions, persistent conflict, 
piracy, drug and human smuggling, and the increasing expansion and 
complexity of the Marine Transportation System (MTS) call not only for 
a modernized Coast Guard, but for authorities and capabilities needed 
to carry out all of our safety, security and stewardship missions in a 
rapidly changing operating environment.
    Coast Guard authorities must keep pace with evolving threats. The 
recent prosecution of the first self-propelled semi-submersible (SPSS) 
operator under the Drug Trafficking Vessel Interdiction Act of 2008 is 
an important example. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Self-propelled smi-submersible

    This law provides our men and women with the tool necessary to 
deliver consequences to drug traffickers who would otherwise scuttle 
their vessels, destroying any evidence that may have been captured, and 
allowing them to return to their country of origin as a search and 
rescue victim. I applaud Congress for their responsiveness to this 
threat and appreciate the close cooperation that led to the creation of 
this vital legislation.
    I also appreciate Congress' continuing efforts to coordinate 
closely with the Coast Guard to support our progress in modernizing our 
acquisitions program. I look forward to working with the Committee on 
this effort and several other modernization, management and operational 
issues as we move together to achieve our shared goals of a stronger, 
more capable and effective Coast Guard across all of our safety, 
security and stewardship missions.

Roles and Missions
    The U.S. Coast Guard is one of the five Armed Services of the 
United States and the only military organization within the Department 
of Homeland Security (DHS). Unique among the Armed Services, the Coast 
Guard is also a law enforcement and regulatory agency with broad 
domestic authorities. The Coast Guard delivers innovative solutions and 
services across a spectrum of authorities, capabilities, competencies, 
capacities, and partnerships (ACCCP). Today, as in the past, the Coast 
Guard continues to leverage its multi-mission structure, guardian ethos 
and established partnerships to protect the American public and global 
marine transportation system. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Modernization
    The Coast Guard's modernization efforts represent our commitment to 
improving the effectiveness and efficiency of not only our mission 
execution, but also our stewardship of the public's trust and resources 
as well. The establishment of the Surface and Aviation Forces Logistics 
Centers introduced immediate improvements to our logistics system 
through the use of a proven, bi-level maintenance model that minimizes 
both costs and operational down time. Moreover, our Headquarters policy 
and management functions were streamlined as well with the 
establishment of the Deputy Commandant for Operations and Deputy 
Commandant for Mission Support. These organizations ensure our 
strategies, policies and human, information technology and capital 
resource management efforts focus on long-term planning, goals and 
objectives without sacrificing the organizational agility necessary to 
address emerging and evolving operational threats and national 
priorities.
    Functional alignment and agility at all levels within our 
organizational structure are critical to our modernization effort. With 
the appropriate authorities, we will be able to continue to this effort 
with the stand up of the Operations Command (OPCOM) and the Force 
Readiness Command (FORCECOM). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although the current Area Command have served us well, they creat a 
bifurcated command, control and support structure that no longer meets 
our operational coordination and readiness requirements. Increasingly 
complex transnational and regional threats demand a centralized command 
and control structure with the ability to allocate, coordinate and 
surge assets regionally and globally both independently and in 
cooperation with our DHS, Department of Defense and international 
partners. Similarly, we must be able to sustain our aging cutters, 
boats and aircraft, and train and equip our workforce to operate at 
maximum efficiency and effectiveness using standardized Coast Guard-
wide procedures and processes. OPCOM and FORCECOM will give us the 
ability to meet these requirements and deliver unsurpassed service to 
the American people. The modernized command and control structure will 
significantly improve our ability to support and execute missions. I 
ask for your support to provide the Coast Guard with authority to carry 
out the remainder of our modernization efforts, which is known as the 
Admiral and Vice Admiral provision.

Marine Safety
    In 2007, I introduced the Coast Guard's Marine Safety Improvement 
Plan, which was followed shortly thereafter by the Marine Safety 
Performance Plan. Expanding the Coast Guard's capacity and continuing 
to develop the expertise of our marine safety workforce is an-essential 
component of my plans to ensure the Coast Guard remains strong and 
ready to serve the nation and around the world. I appreciate Congress' 
support in the effort, but there remains a great deal of work to 
continue to achieve our shared goals in the Marine Safety program. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As I have stated before, there are still too many lives lost at 
sea, too many people injured, and too much property and environmental 
damage because of avoidable accidents in our nation's maritime 
industries. Commercial fishing continues to be one of the most 
dangerous occupations in the world, yet the Coast Guard has no 
mechanism to require uninspected fishing vessels to carry minimum 
safety equipment or meet minimum vessel safety standards. Maintaining 
such standards, in addition to expanded licensing requirements for 
towing vessels, would have a positive impact on our ability to protect 
lives and property in these vital industries.
    The safety of recreational boaters and sport fishers is also an 
important component of the Coast Guard's efforts, in partnership with 
State and local authorities, to reduce the number of deaths and 
injuries in our nation's waterways. Reauthorization of the Sport Fish 
Restoration and Boating Trust Fund (SFRBTF) supports State boating 
safety and education and law enforcement.

    Maritime Security
    As the violence by Mexican drug cartels increases along our 
Southwest border, it has become abundantly clear more must be done to 
stop of the flow of drugs into Mexico and across our borders. The Coast 
Guard plays a vital role in reducing the flow of cocaine trafficked 
through Mexico and the rest of Latin America from South America with 
record cocaine removals in 2007 and 2008. By the end of 2009, it is 
likely the Coast Guard, in cooperation with our partners in support of 
Joint Interagency Task Force--South, will have stopped over one million 
pounds of cocaine from reaching the United States over the last three 
years. Our modernization efforts and sustained recapitalization of our 
aging cutters and aircraft is essential if we are going to address this 
persistent threat to our Nation.
    Similarly, alien migrant smuggling presents a persistent threat to 
the security of our Nation. Human smugglers are following the lead of 
Drug Trafficking Organizations (DTO) and are using more aggressive and 
dangerous tactics including the use of go-fast vessels to evade Coast 
Guard interdiction assets. As efforts continue to increase security at 
the land border, I am concerned smugglers will shift to maritime 
vectors, where the unique operating environment and current legal 
constraints make consequence delivery more difficult. I am grateful for 
Congress' ongoing consideration of the Maritime Alien Smuggling Law 
Enforcement Act (MASLEA) to address the shortfalls in current statute 
and provide the U.S. Government with appropriate law enforcement and 
prosecutorial tools that are uniquely tailored to the maritime 
environment in which this crime occurs.
    As we pursue strategies, tactics and authorities to secure our 
borders from entry of dangerous materials and people, we must also 
consider the security of legitimate commerce in the maritime domain. 
This is particularly important when considering the health and safety 
risks vessels carrying Certain Dangerous Cargoes (CDCs) such as 
Liquefied Natural Gas (LNG), chlorine, anhydrous ammonia and various 
petroleum products present in our ports, waterways and adjacent 
population centers. The expansion of LNG facilities and corresponding 
increase in waterborne LNG shipments to meet our nation's energy 
demands is well known. However, LNG is just one of many CDCs 
transported through the MTS that must be considered in a national 
dialogue on cargo and energy infrastructure security. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      LNG Tanker security zone enforced by Coast Guard small boat.

    In their maritime security plans, LNG, high capacity passenger 
vessels and critical maritime infrastructure must pay particular 
attention to vulnerabilites to small vessel attacks. Since small 
vessels are not required to participate in a tracking or reporting 
regime as larger, commercial vessels, they can operate virtually 
without restriction in our ports and waterways. In 2008, DHS 
promulgated the Small Vessel Security Strategy. The Coast Guard was an 
integral part of the development of this strategy in partnership with 
the Department and other DHS components including Customs and Border 
Protection. The Coast Guard is currently working with our DHS partners 
to develop an implementation plan.
    Small boats are also the conveyance of choice for pirates to use in 
assaulting commercial vessels. Piracy presents an international 
maritime security challenge. Similar to the shared security 
responsibilities associated with Especially Hazardous Cargo vessels, 
the security of commercial vessels against piratical acts requires a 
coordinated strategy across the Federal government, industry and the 
international community. Although the U.S. Government has been 
successful negotiating an arrangement with the Government of Kenya to 
begin prosecuting Somali pirates captured in the Horn of Africa, more 
international engagement and coordination on this issue is required.

Stewardship
    Whether enforcing fisheries in the Arctic or responding to 
hazardous materials spills in the Gulf of Mexico in the aftermath of a 
hurricane, I am committed to ensuring the Coast Guard maintains the 
capability to protect our environment and our natural resources. The 
Coast Guard's authorities under our stewardship missions are extensive. 
We are currently developing new Ballast Water Discharge and Non-Tank 
Vessel Response Plan regulations to decrease the introduction of 
invasive species in U.S. internal waters and ensure industry has 
sufficient response capability to minimize the impact of hazardous 
materials spills.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Coast Guard routinely investigates allegations of wrongdoing 
that turn on the availability of a foreign seafarer witness who 
possesses direct knowledge of how damage to the environment, cargo, and 
vessel, as well as loss of life, occurred. The ship owner--who is aware 
of the importance of foreign seafarer witnesses to an investigation, as 
well as his practical ability to control the continued availability of 
the witnesses in the United States--will threaten to abandon the crew 
to protect his interests in a criminal or administrative investigation. 
Without the ability to protect and temporarily support these 
crewmembers in the case of abandonment, the Coast Guard's ability to 
investigate alleged criminal or illegal activity is severely impaired. 
In addition, seafarers may be abandoned in the United States for purely 
economic reasons. There is currently no authority nor resources for the 
Coast Guard to assist these seafarers, and no incentive for other 
nations to assist American seafarers in a similar situation.

CONCLUSION
    As a maritime Nation and leader in the global maritime environment, 
our security, resilience, and economic prosperity are intrinsically 
linked to the oceans. Safety and freedom of transit on the high seas 
are essential to our well-being, yet are very fragile. Threats to 
border security, growth in the global marine transportation system, 
expanded use of the Arctic, and burgeoning coastal development are 
challenging conventional paradigms. The Coast Guard is ideally-suited 
to help the Nation address these and other challenges through its 
comprehensive, complementary authorities, flexible and adaptive 
operational capabilities, and centuries of experience protecting 
America's maritime security interests. Full support for the President's 
fiscal year 2010 budget request is an important step forward. Our 
ability to optimize our broad spectrum of authorities, capabilities and 
partnerships remains critical to effectively allocating resources 
across the Coast Guard's broad mission portfolio.
    As our Nation faces the challenges of a global economy, the 
environmental impacts of climate change, piracy, and the long-term 
struggle against radical extremism; the Coast Guard must be equipped to 
conduct preparedness and response operations across a broad spectrum of 
potential risks, threats and hazards. The men and women of the Coast 
Guard with courage, sacrifice and dignity and are eager and prepared to 
answer the Nation's call now and into the future.
    Thank you for the opportunity to testify before you today. I am 
pleased to answer your questions.

    Ms. Sanchez. Thank you so much, Admiral. With now having 
heard the testimony I want to thank you for that. I will remind 
each member that he or she will have 5 minutes to question the 
witnesses, and I will now recognize myself for 5 minutes.
    Assistant Secretary Morton, again, welcome to your new job. 
We look forward to working with you. Back in March the full 
committee had a hearing on the 287(g) program and 
recommendations were made by a Government Accountability Office 
report. Some of those recommendations were improving ICE 
supervision of participating communities and documenting 
program objectives.
    What is the status of improving the 287(g) program through 
the recommendations from the GAO report? And are there any 
specific budget requests that will carry out those 
recommendations?
    Mr. Morton. Here is the latest on 287(g). We are in the 
process of revising our memorandum of agreement that will 
govern all of the 287(g) agreements that we have.
    That revision is directly related to the criticisms that 
were in the GAO report, and although we are not quite finished, 
I think the final MOA will address each and every one of the 
concerns, namely the concerns about oversight, the lack of 
performance standards, the lack of an appropriate level of 
supervision by ICE and a lack of clear priorities within the 
agreements. So I expect that shortly.
    Secondly, the budget request itself that is now before the 
Congress includes money within the office that is responsible 
for the oversight and execution of the program, and there are 
several pieces to it.
    There is a component of oversight. There is additionally 
monies for independent OPR inspections and then a request for 
officers and employees to permanently staff the office so that 
we can have sort of a sustained good management of the program.
    So in short, I am fairly confident that we are turning an 
important page on the program. It is an important statutory 
authority that Congress has provided for, and my objective is 
to see that it is implemented in a way that meets the objective 
of our state and local partners, but at the same time reflects 
the priorities of the federal government--focuses the 
agreements on, you know, the appropriate priorities within the 
immigration enforcement arena.
    Ms. Sanchez. Do you know about how many local agencies now 
use this program, and does this infrastructure that you are 
putting in to oversee this program, does it include increasing 
the number of jurisdictions where 287 might apply? Or is this 
infrastructure more to get under control what we already have 
in agreements?
    Mr. Morton. We have 66 agreements right now. There are a 
number of pending agreements that we are waiting on the 
revision of the MOA to move forward on. We have a lot of 
additional requests for authority and some of those requests I 
anticipate will be granted.
    The principal focus of the budget request is to solidify 
the management of the program and to provide for an appropriate 
level of oversight and to address some of the concerns in the 
GAO report.
    But I do anticipate that additional counties and cities 
will come to us and ask for authority, and I do anticipate that 
some of those in the future under the new regime will be 
approved, in addition to the ones that we already have, 66.
    Ms. Sanchez. Thank you. Assistant Secretary, an Associated 
Press Article earlier this year stated that ``more than half of 
the detainees held by ICE had no previous criminal record.'' 
Given that statistic I believe that ICE should explore 
alternatives to detention for people who don't pose a threat to 
our communities, possibly including non-criminal elderly people 
for example, asylum seekers.
    I think the majority of the people that we are holding in 
detention are those that we have a fear will flee before we 
finish the paperwork and decisions on them.
    Could you tell us what the field guidance is, too, for 
screening vulnerable populations for possible alternatives to 
detention? What are you doing about that, and what is your plan 
to expand and explore the different community-based 
alternatives for detention?
    Mr. Morton. I mentioned in my opening statement the 
strengthening and improvement of the detention system is a 
single priority for me, and it is something that I want to 
spend a lot of time on.
    Alternatives to detention are a critical piece of that. We 
have important statutory responsibilities to detain and remove 
people who pose a serious risk of flight or a danger to the 
community. But just as in the federal criminal system there are 
various ways to go about that, and sometimes detention is not 
necessary in some lesser form, that is, an alternative to 
detention isn't appropriate.
    The key is to come up with alternatives to detention that 
work. I don't want to spend the precious dollars that the 
taxpayer provides us on alternatives that don't achieve the 
basic aims that Congress has provided.
    That said, I think alternatives to detention are a very 
promising alternative, and they are something that we are 
exploring right now. I am going to put a lot of time into it, 
and I think you will see that we are going to do more of that 
and still find that we can enforce the law, particularly for 
the vulnerable populations that you mentioned.
    Ms. Sanchez. Thank you, Mr. Secretary. I will now recognize 
the ranking member of the subcommittee, the gentleman from 
Indiana for questions.
    Mr. Souder. Thank you. Before getting to the main part of 
my questions, and it would be easy to use more than 5 minutes 
on each category, I wanted to make a couple of brief requests 
and comments.
    One is Congressman Pascrell and I had had some discussions 
in a previous hearing about how we cooperate with our allies on 
some--whether it be the BEST teams or some air resources. I 
think it would be good if we could have, most likely, a 
classified briefing because some of that is not necessarily 
what we would want in an open hearing, and I am sure----
    Ms. Sanchez. Expand on that a little bit? Is that with our 
counterparts from other nations?
    Mr. Souder. No, no, no.
    Ms. Sanchez. Or is that within the agency?
    Mr. Souder. How our area resources are used, how some of 
the intelligence and cooperation of law enforcement.
    Ms. Sanchez. I think we have had one briefing already a 
little bit on that. But we will do it again.
    Mr. Souder. Yes. Second thing is that I have also asked the 
Ambassador from Mexico, and have not had this back, if we are 
going to have a serious arms trafficking discussion. And this 
is probably Mr. Morton as well as Mr. Ahern, that the 90 
percent figure we are hearing from the U.S.--anybody who is 
tracking this understands that it is only the 3 percent of the 
guns that have a marking on it, and since we are the only 
country that asks for a marking, of course, those would be from 
the United States. The question is where are the other 97 
percent coming from?
    And Mexico is also trying to figure this out when we were 
down in Mexico, but we need to be very cautious about making 
assumptions about the extent of the problem. It is likely that 
many are coming from the United States, but we need that 
statistic or there is going to start to be some balking in 
Congress about the heightened focus on this because the data is 
not there right now.
    The third thing is I noticed in Mr. Ahern's testimony that 
you mentioned a number of agencies and this proliferation and 
stove piping and how do we get cooperation. You didn't mention 
HIDTAs and HIDTAs are one of the most important parts because 
that is what local law enforcement supports the most.
    Not OCEDEF or others, because they don't have votes at the 
same level. They would like all the different agencies, but was 
that an omission or are you back tracking? We have had some 
problems with some agencies pulling out of the HIDTAs.
    Mr. Ahern. No it was not an omission. Certainly we could 
give you the details of how many agencies involve----
    Mr. Souder. Okay. Thank you. Now I would like to follow up 
with you a little bit in my remaining time on the border. That 
first off we have moved from operational to effective control. 
In your budget you state just control. First let me get the 
mileage sorted out. In your testimony it was 697, a total of 
895, the budget says 815?
    And it also says not additional mileage in 2010? Does that 
mean what the budget says, the 85 miles isn't the biggest 
concern, the question is that are we stopping at either 812 or 
895? Can you hit your----
    Mr. Ahern. How about that?
    Mr. Souder. Yes.
    Mr. Ahern. Certainly as far as we are not stopping, a lot 
of this certainly is funding dependent as well. We are taking a 
look at the miles of fence. We currently have 627 miles of 
fence. We will have the remaining 34 miles to actually get to 
the point of 661 within the coming months.
    We will get those construction projects done. We will then 
assess, as far as the additional areas that we need to continue 
to build, those miles should be very few because we did the gap 
analysis initially, and we have not seen any changes in the 
patterns that could have been created by putting that tactical 
infrastructure in place.
    So that continues to be a key part of the strategy. Putting 
the border patrol agents out there, one of the key things that 
we have talked about which is why you wouldn't see such a 
significant resource request for this year.
    This is needed, stabilization for our workforce. We now 
have close to 46 percent of our workforce in the border patrol 
with less than 3 years of experience. We need to stabilize that 
going forward to make sure that we continue to build their 
capability into gaining and maintaining control.
    And as was noted early on was the SBI deployment. Certainly 
we have wanted from the beginning to make sure that we deploy 
an effective technology and be good stewards of the taxpayers' 
dollars so we have not just certified deployment until we were 
certain it was going to work more effectively.
    We just did begin in the last 2 weeks with the beginning of 
the construction and deployment in the Tucson-1 area, and we 
will actually then begin in August of this year to get Aho-1, 
combining those two locations that will give us 53 miles as we 
go forward.
    After we then make those deployments we need to assess how 
effective that technology is going forward because this is 
going to be a performance assessment. What we need to do after 
it is deployed we then need to determine its cost 
effectiveness.
    Mr. Souder. Let me ask you a question then. Are you 
counting those miles as effective control before you have 
measured whether they are effective control?
    Mr. Ahern. I do not believe we have added those in at this 
point, but I can give you a more exact answer.
    Mr. Souder. And when you say effective operational control, 
does that mean, since you are saying you have 697 miles of a 
2,000 mile southern border and approximately 100 miles of a 
4,000 northern border, are you saying you don't have effective 
control then of 1,300 miles of the southern border and of 3,900 
miles of the northern border? What is effective control and not 
effective control, what is the difference?
    Mr. Ahern. Right. And we will be able to give you the 
precise definitions we have used on each one of those 
categories to be able to identify, detect, classify and be able 
to bring to a law enforcement resolution----
    Mr. Souder. It is pretty tough to convince members to pass 
an immigration bill when you say, in public testimony, that you 
have control of 700 of 2,000 miles. That is a rather gaping 
hole.
    Mr. Ahern. Well that certainly is one conclusion that could 
be drawn. That is not necessarily the one that we would draw 
because we do have resources and technology and other 
capabilities in other areas along those borders as well.
    We have, again, had some----
    Mr. Souder. Right, in other words you have a sight strategy 
looking towards the roads and so on.
    Mr. Ahern. Right.
    Mr. Souder. And that is why the definition of effective 
control becomes very important here because in effect, most 
people would like 2,000 miles of effective control on a border. 
Is that less than effective, partially effective?
    How does the department distinguish becomes a critical 
matter if we are ever going to have any real reform because 
American citizens want to know that the border is controlled 
and we aren't--if we, for example resolve status domestically 
that we don't have another millions of people coming up.
    That is the immigration side for narcotics and terrorism. 
We want 100 percent effective control for nuclear, for example. 
So this is an ongoing discussion, but I wanted to raise those 
points.
    Mr. Souder. Absolutely, and if you would like, we would be 
able to give you the precise breakdown of the different levels 
of control for each mile of the border we have on the southern 
tier.
    Ms. Sanchez. The Chair now recognizes Ms. Kirkpatrick.
    Ms. Kirkpatrick. Thank you Madam----
    Ms. Sanchez. For 5 minutes.
    Ms. Kirkpatrick. Thank you, Madam Chairwoman. My first 
question is for the Assistant Secretary Morton. And let me just 
say that I had the opportunity to visit an ICE detention center 
near Coolidge, Arizona, which is in my district, and I was very 
impressed with the professionalism of the people working there.
    Quite a facility and, you know, seeing firsthand just the 
difficulty in detaining that many people. They do an excellent 
job. I was especially interested in how they handled the 
various drug cartel, gang members that they have that require, 
you know, keeping them apart. And so I just want to let you 
know that, I think you are doing an excellent job there.
    Mr. Morton. Thank you.
    Ms. Kirkpatrick. I am very glad to see the commitment to 
border security demonstrated by the nearly 10 percent increase 
in the request for ICE. Currently only about 1,300 ICE agents 
are certified to enforce drug laws under Title 21.
    If ICE were provided full Title 21 authority, would the 
additional enforcement role require more funding for the agency 
or would you be able to roll that responsibility into your 
requested budget without needing to make cuts elsewhere?
    Mr. Morton. Title 21 authority is, at the present, is 
principally an issue of making sure that with our existing 
resources we can bring the appropriate level of special agents 
to bear. And as you have noted, right now the agreement has a 
cap.
    And so regardless of what our overall resources are, we are 
limited in the number of agents who can be authorized to 
perform these duties. It is something that I am very concerned 
about. I am working with the administrator of DEA as we speak 
to try to come to a revised understanding between our agencies 
and a much better working relationship.
    What I will say is I have found the acting administrator to 
be very reasonable on this point. We are working very hard 
together and sort of, say, stay tuned, but I think things are 
generally moving in a very positive direction.
    We take the narcotics, the anti-narcotics mission very 
seriously along the southwest border. The southwest border was 
the first place I went to as assistant secretary. And I went to 
Arizona, and I went to Tucson and Nogales.
    And I am very focused on making sure that we have the 
appropriate authority to carry out our mission to make sure 
that illegal contraband doesn't come in to the United States.
    Ms. Kirkpatrick. Thank you very much. Thank you. Thank you, 
Mr. Chair, I mean. Thank you.
    Mr. McCaul. Thank you, Mr. Chairman and thank the 
witnesses. I also commend the shift of attention to the 
southwest border, and as certainly coming from my state of 
Texas, it has been a concern we have had for many years, and I 
appreciate that.
    I have got several questions, one is following up on Madame 
Chair, she is no longer here, on the 287(g) program for you, 
Mr. Morton. It has been in my view, a very successful program 
and experience I have seen in my state, and it is something 
that is a force multiplier.
    I think more people would like to participate. More law 
enforcement would like to participate. One of the concerns or 
issues that would come up when I would meet with ICE officials, 
for instance in the Houston area, was the detention and removal 
operations.
    That when these criminal aliens, and we are not talking 
about illegal aliens, we are talking about aliens in the 
country committing crimes. They were very candid, the ICE 
officials, and they would literally point the finger at me 
being a member of Congress that I was to provide the solution 
in terms of funding.
    And that there was a lack of funding and a lack of 
resources necessary to process these criminal aliens. I see the 
budget numbers have risen, but not very significantly. I 
introduced a bill that would double these resources because 
that was what the guys on the ground are telling me that they 
need.
    So with that being said, you are in charge of this whole 
operation, Mr. Morton. Can you tell me what you opinion is?
    Mr. Morton. It is my 4th week on the job, so?
    Mr. McCaul. And I appreciate that.
    Mr. Morton. --bear with me a little bit. But the detention 
and removal operations are obviously critical if we are going 
to have some level of true border security. And as part of the 
secretary's announcement, before I even became assistant 
secretary, we sent a fairly healthy level of additional 
deportation and removal officers to the southwest border to 
focus on exactly that, the identification and removal of 
criminal aliens.
    One of the very first jobs I ever had in government was as 
an INS trial attorney, and I worked the detained criminal 
docket. So I can tell you to rest assured that the 
identification and removal of criminal aliens is a real 
priority for me.
    I need to get in to the weeds a little bit more on the 
detention and removal program. A very significant amount of the 
agency's budget is diverted to detention and removal 
operations. It is a very, very big operation, but I want to 
make sure that we have got the right level of focus, the right 
level of resources.
    I have myself, every time I go out on these trips I talk to 
the detention and removal folks, and they tell me similar 
things to what they tell you. And so I hear that message loud 
and clear, some of our deportation officers handle a huge 
docket. And what I would say is I am on it. I want to take a 
look at it. It is a serious part of what we need to do, and we 
need to do it well.
    Mr. McCaul. Let me say also I appreciate your background. I 
think you bring a great experience to your position. And I 
would encourage you to talk to them at the field level because 
I think you will hear a consistent theme and message of we need 
more to adequately do our jobs. We are strapped. We are 
completely underfunded.
    And again, when they look to me as a member of Congress for 
the solution, I think we do have that responsibility in the 
Congress, and that is the whole point of this hearing is to 
look at your budget and determine whether we should be 
providing more funding for you.
    I happen to think that we do, and I have introduced a bill 
to do just that. But I would encourage you not to be shy. and 
that when you talk to your men in the field and women, when 
they tell you that you report that to the Congress so that we 
can provide you the resources that I believe they desperately 
need.
    And I see that my time is running out. With that, I yield 
back.
    Mr. Pascrell. [Presiding.] Thank you, gentleman from Texas. 
I am going to recognize myself for 5 minutes. Mr. Morton, I 
want to pursue, continue to pursue what two members have 
already brought up, and that is the subject that is before us 
right now on dangerous criminal aliens.
    In September of 2006, a memo came out of the department to 
the agencies within Homeland Security, and specifically we are 
talking at the National Fugitive Operations Program. And that 
memo said that there would be quotas that each of these teams 
established throughout the United States of America. We wanted 
to gather numbers apparently.
    And the agency that I am referring to today in 2006, there 
was a tremendous drop in my state of New Jersey of how many 
criminal undocumented aliens were arrested, a 42 percent 
decrease, making the country more vulnerable since we were 
concentrating on how many rather than to whom we went after.
    First of all, Congress was not told about this. None of us 
were, that I know of, that policy to do that. We were slow 
learners but we finally find out many times later on, I know 
that.
    Now I am going to ask you some questionss and the first 
question, which is a yes or no answer, is are those quotas 
still in order?
    Mr. Morton. No.
    Mr. Pascrell. Thank you.
    Mr. Morton. And if I could just follow up on that, I mean I 
addressed this question in my confirmation. And my view is that 
hard quotas and law enforcement are not a good mix. That is 
different from saying that there should be priorities, but as 
you noted when you have a hard quota it can be skew the end 
result.
    And it leads people to focus on achieving the number rather 
than focus on the mission at hand. And so you can find yourself 
in a situation where the agency's priorities for focusing on 
the worst of the worst then get skewed because at the end of 
the day people need to?
    Mr. Pascrell. Well, I am concerned about what happens when 
the, you know, we know very specific anecdotal stories now. In 
the city of Paterson, New Jersey, I have lived there all my 
life, I know something about it.
    Walter Chavez, his home was raided by ICE agents just last 
year. And this is what he said, ``They zealously came into our 
home with guns and hostility.'' He is 44. He is legal, as his 
wife is legal and his now 10 year old son is legal.
    ``They asked us to show we were legal. And when we showed 
them, they demanded to know where the illegals were in the 
house.'' These folks were not looking after criminals, Mr. 
Morton. ``They terrified my son, who was nine at the time, came 
running out of his room, and an agent held a gun to him.''
    He is a traumatized child because of that. At the same time 
in 2007, we had a shooting in Newark, New Jersey by a gentleman 
called, and I used the word loosely, Jose Carranza who shot, 
execution style, three citizens of Newark. Shot them down and 
killed them. They were students. Shot them down in a school 
yard.
    He was an illegal alien with impending violent criminal 
indictments, and yet he was roaming the streets of Newark. He 
was not detained.
    Mr. Morton, I can cite other cases. I cite these because 
they are pretty close to home. This is not acceptable for the 
Congress. And this is the result of bravado and trying to 
create fear rather than attacking the issue and the problem. We 
don't want any criminals on the street, whether they are legal 
or not legal.
    The department had a recess from its original policy, and I 
think it has led to all kinds of major problems. Would you just 
quickly comment, and then we will move on.
    Mr. Morton. I am not familiar with the individual cases 
that you cite, but I don't doubt that they occurred. Obviously 
they just occurred before my time. What I will say is that, and 
I think the point that you touch upon, is that in a world of 
limited resources, the agency needs to make a rational set of 
priorities for the execution of its authorities and resources.
    In my view I don't think that there is any daylight between 
us on this, nor do I suspect there is much daylight between us 
and any other members of the committee when it comes to the 
identification and removal of people who are here unlawfully.
    We start first and foremost with those people who are 
committing crimes. And it doesn't make a lot of sense to have 
large numbers of people who are committing crimes not be the 
focus of the agency. It is going to be my focus. We are going 
to spend a lot of time on it, and I want to have, you know, 
fewer of the concerns that you cited be the ones that are 
raised to me.
    And that is why we have the request in here for secure 
communities. It is part of just a sustained effort that we are 
going to stay focused on to identify and remove criminal aliens 
from all of the----
    Mr. Pascrell. Thank you, Mr. Morton, and good luck on your 
new job.
    Mr. Morton. Thank you.
    Mr. Pascrell. Chair recognizes my friend from Texas, Ms. 
Jackson.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and I 
thank the witnesses for their presence here. I believe 
congratulations are in line for Assistant Secretary Morton. And 
just for my edification, Mr. Morton, your background includes 
what? I was not obviously at the confirmation hearings. You 
seem to suggest that you were at INS for a period of time?

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    Foremost, I would like to extend my thanks to Chairwoman Sanchez 
for hosting this important hearing today. I would also like to thank 
our distinguished witnesses:
        <bullet> Mr. Morton, Assistant Secretary, U.S. Immigration and 
        Customs Enforcement, Department of Homeland Security
        <bullet> Mr. Ahern, Acting Commissioner, U.S. Customs and 
        Border Protection, Department of Homeland Security
        <bullet> Admiral Allen, Commandant, U.S. Coast Guard, 
        Department of Homeland Security
    I thank you all for bringing your advice and expertise today as we 
work together to determine budget priorities for the Department of 
Homeland Security (DHS) within the context of the President's Fiscal 
Year 2010 Budget Request. This hearing will examine the financial needs 
and requirements for the U.S. Immigration and Customs Enforcement 
(ICE), U.S. Customs and Border Protection (CBP), and the U.S. Coast 
Guard (USCG) respectively.

BACKROUND
    On February 26, 2009, President Barack Obama submitted a ``Budget 
Blueprint'' as a preliminary budget request to Congress, with the 
intention of submitting a complete budget proposal at a later date. On 
May 7, 2009, the President submitted the FY 2010 budget request to 
Congress. In the budget proposal, the President requests $55.11 billion 
in total budget authority for the Department of Homeland Security, a 
$2.63 billion (5%) increase over the FY 2009 enacted budget. The 
request for discretionary spending for the Department is $42.7 billion, 
an increase of $2.66 billion (6.6%) over the FY 2009 enacted budget.
    The President's Budget request states that increases in net 
discretionary spending will further strengthen the Department's ability 
to fulfill its mission through five main action areas: (1) Guarding 
against terrorism; (2) Securing our borders; (3) Smart and tough 
enforcement of immigration laws and improving immigration services; (4) 
Preparing for, responding to, and recovering from natural disasters; 
and (5) Unifying and maturing DHS.
    On June 8, 2009, the house Appropriations Committee, Subcommittee 
on Homeland Security, marked up the FY 2010 Homeland Security 
Appropriations Act. The subcommittee reported out a $42.6 billion bill 
for the Department, which would provide a 6.5 percent increase over 
fiscal 2009 but about 1% less than the President's request.
    Immigration and Customs Enforcement (ICE) is responsible for 
investigating the illegal introduction of goods, terrorists, and 
criminals across our borders, detaining criminal and undocumented 
aliens, and protecting critical infrastructure. Therefore, the 
Committee supports the FY 2010 Budget request as is, is adequate for 
this mission, though increased resources may be necessary in certain 
areas.
    The President's FY 2010 Budget request for the Coast Guard provides 
the agency with much-needed funding to replace aging assets. The 
Committee recognizes it is necessary to provide the Coast Guard with 
the tools it needs to ensure our Nation's shores are protected from 
possible harm.
    Overall, the President's Budget request provides adequate funding 
for Customs and Border Patrol (CBP), especially given the significant 
investment in border security this Congress has already made in recent 
fiscal years. However, there are a few areas that may need more 
resources. For example, hiring of CBP officers has long lagged behind 
hiring of Border Patrol agents, and this budget does not improve their 
numbers significantly. Furthermore, with the agency's rapid growth in 
recent years, it remains to be seen how CBP would manage without 
constriction funds over the long term.

OVERVIEW OF FY2010
    On June 8, 2009, the house Appropriations Committee, Subcommittee 
on Homeland Security, marked up the FY 2010 Homeland Security 
Appropriations Act. The subcommittee reported out a $42.6 billion bill 
for the Department, which would provide a 6.5 percent increase over 
fiscal 2009 but about 1% less than the President's request.

Immigrations and Customs Enforcement
    The President's FY 2010 Budget requests $5.76 billion in total 
budget authority for ICE. Although this appears to be a decrease of 
$171 million (3%) from the FY2009 enacted budget, the Department 
proposes to transfer the Federal Protective Service (FPS) and its $640 
million in funding from ICE to the National Protection and Programs 
Directorate (NPPD). Excluding the FPS budget, the FY 2010 budget 
request in net discretionary spending for ICE is actually an increase 
of $496 million (9.9%) over the FY 2009 enacted budget, including an 
additional 1,229 FTEs.\1\
---------------------------------------------------------------------------
    \1\ This number excludes the decrease of 1,225 of FPS personnel 
proposed for transfer from ICE to NPPD.

Customs and Border Protection
    The President's FY 2010 budget requests $10.1 billion in net 
discretionary spending for CBP, which is $229.8 million (2.3%) above 
the FY 2009 enacted budget amount of $9.82 billion.\2\ The FY 2010 
budget request provides a modest increase for CBP, including 2,524 
FTEs, which should meet most of the agency's needs, though there are a 
few programs that could benefit from additional resources and 
personnel.
---------------------------------------------------------------------------
    \2\ The FY2009 figure in the President's FY 2010 Budget request 
does not include an additional $680 million provided in the American 
Recovery and Reinvestment Act (P.L. 111-5) for construction at ports of 
entry, non-intrusive inspection equipment at ports of entry, SBInet 
technology, and tactical communications modernization along the 
southwest border.

U.S. Coast Guard
    The President's FY 2010 Budget request in net discretionary 
spending for the Coast Guard is $8.37 billion, an increase of $268 
million (3.3%) in comparison with the FY 2009 enacted budget. The 
request for FY 2010 includes the addition of 715 FTEs. The Committee 
believes this request will provide adequate funding for the Coast Guard 
to meet its safety and security missions.

CONCLUSION
    In conclusion, I support the President's comprehensive FY 2010 
$55.11 billion budget proposal for the Department of Homeland Security, 
which includes $42.7 billion in net discretionary spending. This budget 
will enable the Department to efficiently carry forth its obligations 
as well as address any remaining departmental management and 
operational challenges. Furthermore, I support ICE, CBP, and USCG 
requests, as these important divisions are in need of additional 
funding and personnel in order for them to function at their full 
potential. I urge my colleagues to support the President's FY 2010 
budget proposal for the Department of Homeland Security.
    Thank you Chairwoman, I yield the rest of my time.

    Mr. Morton. I am a career federal prosecutor. I have been, 
until 4 weeks ago, I was a career government employee my entire 
professional career. I started at the Department of Justice as 
an INS trial attorney. I then went on to work for the deputy 
attorney general, who as it turns out ended up being the 
attorney general, Eric Holder.
    And I was also a federal prosecutor at Alexandria, Virginia 
for nearly 7 years. And then I ran part of the criminal 
division in main justice for 3 years, ending up as the acting 
deputy assistant attorney general before I became the assistant 
secretary.
    Ms. Jackson Lee. Let me thank you, and I know the other 
gentlemen, let me welcome them again to our hearing. And I 
think that background, Mr. Morton, is enormously important. 
First of all your commitment to public service, but I do hope 
as we help you establish priorities in this committee that we 
have a breath of fresh air.
    Frankly, I think enforcement is very, very important. 
However, the comments that you heard from my colleagues I want 
to associate myself with coming from Houston, Texas, and want 
to particularly focus in on two aspects of your work. That is 
again the criminal aliens and the history of raids.
    Frankly, I think the raiding instructions or directives 
were politically based. It was a mixture of the frustration of 
local authorities and local populations who were saying enough 
is enough. And our inability as a Congress to put in place 
comprehensive immigration reform, which would have been the 
kind of roadmap that then allows enforcement to follow a 
particular track.
    So in Houston we had what we call the Rags Company's raids. 
Let me count that scene since some of them were in my 
congressional district, and I went to visit those business 
persons. And the raid was on a workday.
    It had workers climbing up bundles of clothing at the large 
warehouse, pregnant women running for their lives and some even 
falling off the large stacks of items that were in the 
warehouse. I have not followed the case to give you a precise 
detail as to its status, but I will tell you that the owner 
said they had documentation, as much as what was required at 
that time.
    So my question is what is the status of random and reckless 
raids? And what priorities are you putting on enhanced training 
to assure the capture and prosecution of criminal aliens?
    One of the issues that provoked our community extensively 
was the shooting death of Officer Johnson, beloved officer, 
family man, father, husband, by someone, a child predator, who 
had come back across the border. This individual certainly 
should have been captured and not released.
    So I want to try to get down to the priority, the training, 
the collaboration with the FBI, the DEA, U.S. Marshals, ATF, et 
cetera, in honing in on criminal aliens. I almost would like to 
hear that we have designated a task force and we have trained 
individuals to be specifically keenly expert in going after 
criminal aliens. And then if you would, the question of the 
raids.
    Mr. Morton. Thank you. Very briefly and in light of my time 
let me review some of the----
    Ms. Jackson Lee. And let me do this so that I can have it 
on the record please. Admiral Allen, if you could explore, and 
thank you again for your service, could you explore the 
comfortableness that you feel that your team, your operations 
are handling TWIC and its enforcement and explain for us, I may 
have the wrong terminology, but I visited our Coast Guard unit 
in Houston for what we call Rescue 21 or the new services that 
we are going to have.
    And on Mr. Ahern, your work, I understand that you may not 
have as many opportunities for hiring as the border patrol. I 
want to know where you stand on the need for more hires on the 
border protection. Mr. Morton, thank you.
    Mr. Morton. Let me start by saying we have a lot that is 
ongoing in the area of the identification and removal of 
criminal aliens. And I would be happy to come and focus a 
little bit more on the details with you and your staff.
    Ms. Jackson Lee. Thank you.
    Mr. Morton. The major initiative that we have, particularly 
in your area, obviously we have secure communities which is the 
sort of, from our perspective, the future of identifying all 
criminal aliens, regardless of where they are arrested and 
booked. And with time, I am happy to go into that in more 
detail.
    We also have the border enforcement and security task 
forces that as you noted bring together not only federal law 
enforcement FBI, DEA, ATF with ICE, with CBP but also state and 
local law enforcement and for the first time members of 
international law enforcement along the southwest border. We 
have five officers from Mexico now participating in our task 
forces.
    And there are monies in this budget for both of those 
things. And I just reiterate my personal commitment to 
improving our efforts on identifying and removing criminal 
aliens. I just don't think there can be a higher priority for 
us as an agency. And I am more than happy to learn if there are 
frustrations or things that you think we can improve on, I 
would love to know that.
    Very briefly on the question of worksite enforcement, we 
have new guidelines that were just issued. I think you will 
find that we are going to engage in a sustained focus on 
employers, first and foremost trying to deter people through 
criminal investigation and prosecution. That is going to be the 
primary focus of our program.
    Obviously we are going to enforce the law across the board. 
But we are going to try to do it with a much more targeted 
focus on employers, first and foremost, rather than the 
employees as the only focus.
    Ms. Jackson Lee. Mr. Ahern, Mr. Allen. Thank you. Thank 
you, Mr. Chairman.
    Mr. Ahern. Just very briefly to answer your question. As 
you know border patrol is part of Customs and Border Protection 
and certainly the growth that they have seen, the doubling of 
the border, if you look at 2001 they were able to get over 
18,000 to approach 20,000 by the end of the year. They were 
grossly understaffed and were in need of those enhancements. So 
I think that speaks for itself.
    On our CBP officers at the ports of entry, if you look from 
2004 to present we have actually had an increase on 20 almost 
21 percent, 20.6 percent actually for ports of entry. Those are 
significant numbers as well.
    I think again one of the important things to note, too, is 
if you look at the 2010 submission you will see very modest 
increases that are requested as part of the southwest border 
initiatives. For officers at the ports of entry to sustain the 
efforts, we are looking at 65 and for border patrol agents to 
support that initiative, 44. And those are appropriate numbers.
    As I stated at the beginning of the hearing today, this 
year coming up really is the need for us to stabilize the 
organization with the growth that we have had and the maturity 
of the organization continuing to grow. Those are critical 
factors to go forward.
    And my final note is one of the things that has not yet 
taken shape, is Congress was very kind to us for the fiscal 
year 2009 appropriations, providing additional resources for 
us. But the downside and factual side is 734 additional 
positions for our officers at the ports of entry were only 
funded from August 1st forward.
    So we still have 734 that we will be bringing onboard as 
the funding is available from August 1st going forward that 
will take us into the beginning of fiscal year 2010.
    Mr. Pascrell. Thank you. We have to vote in a few minutes 
so I want to make sure we recognize you. I want to thank the 
gentlelady from Texas.
    Mr. Green from Texas. The gentleman has 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and I thank the 
witnesses for appearing as well. Friends, I hold in my hand, 
hands if you will, a news article from today's Houston 
Chronicle.
    And it addresses a White House report and the opening 
sentence reads, ``Not only is Houston a major center for 
Mexican cartels smuggling drugs and weapons, but banks and 
financial institutions in the nation's fourth largest city also 
are targets for the gangsters trying to hide millions of 
dollars in profits, according to a White House report released 
Wednesday.''
    Then it goes on to talk about 201 international drug and 
money laundering organizations in a 16 county region that 
includes Texas and Mexico. It goes on to indicate that there 
are truckloads of cash heading south. That Houston remains the 
number one source in the United States for guns traced from 
organized crime scenes in Mexico.
    Another excerpt, ``Mexican drug trafficking organizations 
and their associated enforcement groups rely on firearms 
trafficking from Houston.'' Final thing, ``Crack cocaine is the 
primary drug of abuse in Harris County, notwithstanding 
marijuana.''
    I am mentioning these excerpts and this article because, 
obviously, I am from Houston, and my constituents are concerned 
about this. And I would like to know if we have properly 
budgeted such that we can confront and eliminate this kind of 
activity in the nation's fourth largest city. And I welcome 
comments from whomever would like to respond.
    Mr. Morton. I would be happy to start. I think this is an 
area where there is a lot of good work to be done. It is a 
major focus for me and as I mentioned----
    Mr. Green. Because my time is limited----
    Mr. Morton. Yes.
    Mr. Green. --please excuse me for interrupting. Could you 
go straight to the point because I have one more question?
    Mr. Morton. Sure.
    Mr. Green. Okay.
    Mr. Morton. We have, as I mentioned in my opening 
statement, we have very broad authorities that touch on pretty 
much everything that you have just described. And just to give 
you an indication of what we are doing. We are trying to build 
up these task forces along the border to address this.
    The first international trip that I took was to Mexico to 
address, again, pretty much every one of the issues that you 
just described. They are serious issues. They are ones that we 
are working on. I don't want to underestimate the challenge 
that we face in tackling them. They are very serious.
    But I can tell you there is a lot of focus on it. We work 
very closely with CBP on the southbound smuggling of both 
weapons and money. We are focused on it. We are going to you 
know really up our efforts there. I can let Mr. Ahern add to 
that.
    Mr. Green. And before he adds, permit me to ask an 
additional question, we here in Congress, and I will use a 
personal pronoun, I would like to be of help to you. Do we need 
some additional legislation to help you in this endeavor? While 
we may be winning, it appears that the challenge is continually 
growing.
    So if there is some additional legislation, I think you 
should address that as well. So before you pass the baton, if 
you would, would you tell me if there is any additional 
legislation that you think we need?
    Mr. Morton. Again, I would say I am on my 4th week on the 
job. It is a little hard for me to know for sure.
    Mr. Green. I accept that as a pass. Let me go to the next 
gentleman because I only have 1 minute and 3 seconds.
    Mr. Ahern. Yes, sir, very briefly, you know, with money and 
guns going southbound into Mexico, we need to have a layered 
strategy, just as we do for drugs and other concerns coming at 
our borders from the south.
    So certainly our role at the borders is to try to go ahead 
and intercept as much as we can going southbound which is why 
Secretary Napolitano announced in March the Southbound 
Initiative, and why you see $26 million in our budget for 
combination of some technology but also personnel to sustain 
this effort.
    And then the final point is continuing to work in Mexico--
--
    Mr. Green. Let me quickly ask you about--thank you, and I 
appreciate all of you. Please forgive me for being rude, crude 
and unrefined, but I have to ask these questions quickly. With 
reference to laws, you see, you are on the front line. You know 
what is needed to help you get the job done.
    I am in the position to some limited extent of helping you 
with the laws that you need to get the job done, anything that 
you can call to my attention that we need to do to help you.
    Mr. Ahern. I would state that we annually look at all the 
legislative initiatives. I know that the department under new 
leadership will be examining that as well, and I think it would 
be best for the department to provide a collective package back 
at the appropriate time in the very near future. We will pass 
that to the secretary.
    Mr. Green. Thank you. May the Admiral respond please? 
Admiral, thank you for being here.
    Admiral Allen. Yes, sir, just very quickly, if you look at 
the threat from South America and cocaine flow up north, I said 
earlier in my testimony we need to be concerned about the 
southern border with Mexico as well. The majority of cocaine 
that enters the United States moves from non-commercial 
maritime means from South America into Central America and 
Mexico.
    So while we focus on the southwest border, we need to make 
sure we have an even response in what we would call the transit 
zone, where we work with Customs and Border Protection and the 
Defense Department under U.S. Southern Command to interdict 
cocaine before it even gets to Mexico and Latin America. And I 
can give you a more detailed answer for the record.
    Mr. Green. Thank you, sir. Any laws?
    Admiral Allen. Well, let me congratulate the Congress 
because last year you passed legislation that banned the 
operation of self-propelled semi submersibles as a violation of 
federal law. This is an emerging threat from South America.
    These are low profile vessels, very difficult to detect, 
and the Congress made the operation of those on the high seas 
illegal, and we are up to our third prosecution on those this 
year. It was a tremendous help, and I thank the Congress.
    Mr. Green. Thank you, sir.
    Mr. Pascrell. And I thank the gentleman from Texas. I want 
to thank the Admiral for bringing up a very, very cogent point 
there, and I didn't want that to go by. I want in all fairness 
to go back to the gentlelady from Texas and allow the Admiral 
to respond to her very specific question because you didn't get 
a chance.
    Ms. Jackson Lee. Thank you, Mr. Chairman, and thank you 
Admiral again for the service of the Coast Guard and all others 
that are present before us. Thank you.
    Admiral Allen. Thank you for your sustained support, 
especially from our people in Houston. Got a tremendous cap in 
the port down there in Bob Diehl who will be retiring, and I 
know he has really enjoyed working with all of you in the area.
    First of all regarding Rescue 21, for the committee's 
information, this is the maritime mobile radio system for the 
country. It also is the Coast Guard's command and control 
system. It allows borders to call us, pass a mayday and allows 
us to respond.
    This is being put in around the country and the Rescue 21 
system around the Houston-Galveston area we conditionally 
accepted in October of 2008. It added 857 miles of coverage 
along our coastline.
    This allows us to hear somebody with a one watt 
transmission, one meter high, 20 miles off shore, allows us to 
direction find and hone rescue units in. It basically takes the 
search out of search and rescue.
    This is a very significant system for the country and this 
year we have $117 million to continue to expand that. We will 
look for the support of the Congress to continue that ma'am.
    Ms. Jackson Lee. Just one moment, would that be practical 
in the tragedy in the present Air France situation if that was 
in place? Some, because I kind of--
    Admiral Allen. No, this is short term line of sight----
    Ms. Jackson Lee. Because when I saw the exhibition when I 
went to the station, that was what they suggested, you could 
pinpoint someone, if they had a walkie-talkie, is that it?
    Admiral Allen. Yes ma'am, and it allows direction finding 
on the signal, but this particular radio frequency signal is 
line of sight and very short duration.
    Ms. Jackson Lee. All right.
    Admiral Allen. Yes ma'am.
    Mr. Pascrell. Thank you Admiral. Go ahead, Admiral.
    Admiral Allen. Regarding Transportation Worker 
Identification Program, just know that we had a conversion of 
two requirements, one was for the Maritime Transportation 
Security Act, to have people vetted that were going to have 
access to secure portions of facilities and vessels.
    We have been working with TSA on that for a couple of 
years. Also, the requirement to issue new Merchant Mariner 
Documents and go to a similar biometric system to capture those 
and do background checks for both systems.
    They basically came on line on the 15th of April and are 
moving forward. The next critical step in the Transportation 
Worker Identification card is the Phase Two rulemaking which 
will put card readers in and establish the requirements for how 
they will make sure the facilities are in compliance.
    Now, we put out an advance notice of the proposed 
rulemaking in March for 60 days, got a significant number of 
comments back. We have also done some prototype beta testing of 
some mobile card readers. We are analyzing all that now, and 
hope to go to a notice of proposed rulemaking later this 
summer.
    Ms. Jackson Lee. This is the final word. You know I chair 
the subcommittee on transportation and security, Admiral. I 
would appreciate it if we can have a meeting on this issue of 
the card readers which has been quite a?maybe we will have a 
group meeting, but it has been quite a stick in the mud on this 
enforcement point.
    Admiral Allen. Yes ma'am, and Chairwoman Sanchez has some 
concerns, and I would be glad to meet.
    Ms. Jackson Lee. Thank you very much.
    Mr. Pascrell. Thank you gentlelady. Thank the Admiral, and 
we have a few more moments because we have just taken a recess, 
and so votes will be delayed. We are going to have a second 
round, and I will recognize the ranking member.
    Mr. Souder. I thank my friend from New Jersey, and I want 
to point out to the Commandant that they kind of ignored in 
some of the first questions is a unique form of congressional 
flattery. We appreciate all of you being here and doing that, 
and particularly with reference to deep water.
    This has been a critical part, because obviously if your 
vessels are in port all the time, getting repaired, or can't 
get out far enough into the east Pacific, or out fast enough 
everything else becomes more or less irrelevant in safety, 
terrorism and narcotics.
    I have two basic and we need to support that including up 
in the Arctic because as there is melting up there, and we see 
the energy up there, as you have pointed out to me and you 
referred to it in the testimony, that we could get blindsided 
from the north whether it is terrorists or contraband, if we 
don't control some of the waters up there.
    And right now the Russians are going after it directly and 
we are behind. We are only other people there, but that that is 
part of the reason you have been pushing that request.
    I have two basic questions. One relates to the Secure 
Freight Initiative in trying to reach the 100 percent goal. 
Secretary Napolitano says we are not likely to meet that. This 
is a multi-part, how will the nine additional ports be 
selected? Are there other countries requesting the SFI 
presence, and would you support a change in the law that says 
what 100 percent mandate isn't achievable, how are we going to 
address the question?
    The other category, which you have done a little, but to 
illustrate in the drug trafficking organizations in Mexico, 
what the role of the Coast Guard has been. You have had some 
major cooperative efforts there.
    They have been much more cooperative through President 
Calderon than in the past, and how some of that might be, 
whether it is the east Pacific transiting from Colombia, parts 
hitting Guatemala, in the time you have here.
    Admiral Allen. Yes, sir. If I might, we have a role in the 
Secure Freight Initiative, but it is largely in support of 
customs, and I would defer to Commissioner Ahern to answer that 
question, and then I will follow up with the drug question, 
sir.
    Mr. Souder. Thanks.
    Mr. Ahern. Thank you very much. As you know, we have been 
working and studying that legislation since it was passed. 
Actually I believe it was introduced by this committee or the 
full committee as part of the 9/11 Act in August of 2007.
    Secretary Napolitano did state in her confirmation hearing 
I believe it was, that the implementation of that for the 2012 
timeframe is not going to be achievable at this point in time.
    I have testified before about this in the full committee, 
as well as our appropriations committee on numerous occasions 
in the past, as well, speaking to the challenges and issues on 
that topic, and believe there needs to be a continued 
thoughtful discussion about moving forward with 100 percent 
initiative which is the foundational issue of concern.
    As for the Secure Freight Initiative, which is a subset of 
our Container Security Initiative, looking at what do we need 
to add for additional security in very precise locations, SFI 
is something that makes sense in locations of risk, as an 
additional layer of risk mitigation.
    For instance, before even the Safe Port Act was passed and 
then the 9/11 Act came along, we were actually looking and 
deployed and have deployed now for over 2 years in Port Qasim 
Pakistan a full technology sweep for radiation scanning as well 
as x-ray of every container coming to the United States. In 
that location it makes perfect sense.
    So we need to continue to study all the different 
logistics, the financial impact, the sovereignty issues of all 
the different nations throughout the world, the fact that over 
700 ports ship to the United Sates, and just the logistics and 
doability are extremely challenging. So I know that the 
secretary has made her statement on that and will continue to 
study the issue in great detail.
    Admiral Allen. Sir, I would like to add a comment and then 
go to the answer to your second question. If you look at the 
overall issue of port security, and waterway security in this 
country and around the world, while I agree the containers are 
important and I know the acting commissioner does as well, 
there are a variety of threats to our ports.
    There are boat cargos that are being moved. We have 
liquefied natural gas that is being moved. They are dangerous 
cargos. A sole focus on containers to the exclusion of all 
other risk factors in a port may in the long run not serve us 
well, and I believe a more measured discussion that takes a 
look at all the spectrum of threats into our ports is probably 
a better context for the discussion.
    Mr. Souder. And Mexico, can you mention about that?
    Admiral Allen. I would be happy to. A significant thing 
happened this year, sir. We celebrated the 20th anniversary of 
the passage of the National Defense Authorization Act in 1989 
that allowed DOD to enter detection and monitoring support for 
the war on drugs, if you will. That is embodied as you know in 
Joint Interagency Task Force South and Key West which works for 
U.S. Southern Command.
    There has been an extraordinary maturation of coordination 
and inter-agency cooperation down there including international 
coalition partners that is resulting in record drug seizures in 
the transit zone where we have a fusion of intelligence, inter-
agency cooperation at a level that I have not seen in my career 
in the Coast Guard.
    It has contributed to 3 successful years of record seizures 
for the Coast Guard, but we don't do it alone. It has to deal 
with P-3 aircraft that are provided by Customs and Border 
Protection, Navy gray hulls, our coalition partners from Europe 
and South America.
    And I only bring this up in that as I said earlier, we need 
to be concerned about the southern border of Mexico as well, 
and one very key incident occurred last year, and I will use 
this as a vignette and be happy to follow up with any other 
information you might have.
    We had a customs P-3 aircraft flying off the coast of 
Mexico that spotted a self-propelled semisubmersible, so we 
called a cold hit. There were no surface assets in the area 
that could be employed to stop that vessel.
    In a full, open, transparent information sharing with 
Mexico, we passed that to the Mexican authorities. They 
launched forces within 1 hour to respond to that event, and 
Mexican Marines vertically inserted under that self-propelled 
semisubmersible and took it down, and we participated in the 
exploitation of the intelligence associated with that earlier 
on.
    This is emblematic of the level of cooperation we have, 
Coast Guard with the Mexican Navy, but overall the change in 
attitude and the international cooperation down there, sir.
    Mr. Souder. Thank you, and I appreciate those comments 
because it tends to get lost in a lot of our debates how far 
Mexico has come both in their capability and their willingness 
to cooperate. That is it.
    Mr. Pascrell. Thank you, Admiral, for your response. Mr. 
Ahern, I have two quick points. One, is not a question, first 
point is I am glad that the president has recognized, this 
president, that we have in the northern border, and that the 
budget has been increased to add patrol agents, border agents 
to the northern border.
    I think the figure is $20 million, you can correct me. I 
would hope that you can report to this committee our efforts in 
bolstering our protection up on the northern border. You know 
the pitiful amount of agents that were there in 9/11, around 9/
11, and we have attempted, the Congress, to increase but we 
don't hear much about the northern border, and I would hope 
that you could put something before us to tell us of your 
efforts.
    My question has to do with the electronic system, what the 
travel authorization. The 9/11 Recommendations Act, the 
committee worked hard to strengthen the Visa Waiver program in 
that act. We required travelers to transmit CVP vital passenger 
information before boarding an aircraft to the United States.
    The system known as the Electronic System for Travel 
Authorization is currently funded through annual 
appropriations. However, the Department of Homeland Security is 
also authorized to collect a fee for the administration of the 
program.
    How is the implementation of that program going, in your 
estimation, and what percentage of Visa Waiver program 
travelers are complying with the present requirements, and 
third, what happens to travelers at a port of entry if they do 
not have an ESTA?
    Mr. Ahern?
    Mr. Ahern. Thank you very much. And we will be happy to 
provide as much detail as you would like or individual briefing 
on the northern border. With all the assets we have deployed 
beyond border patrol agents, SBInet----
    Mr. Pascrell. Right.
    Mr. Ahern. --as well as aviation assets and certainly the 
Coast Guard with their Shiprider and other programs they have 
throughout the northern tier. I think it is an impressive story 
and great steps for the northern border. I think that would be 
important to hear.
    For the ESTA program, on the first part of the fees, 
certainly it is not currently funded through a fee structure. 
It is through the appropriated monies. We actually do have a 
contract study going on right now to actually make a 
determination and a recommendation. I will be forthcoming on 
whether we actually should establish a fee structure or not.
    I am not sure exactly where it stands at this point, but I 
know that there is also a proposal that is circulating here on 
the Hill for a travel promotion act, I believe is what the 
label is, to potentially create a fee that would go to commerce 
department, if I am correct, to generate travel. And I believe 
it is under the guise of ESTA, but I am not sure how that would 
work. I have not seen that and have not had an opportunity to 
comment on it formally, but I think we should take a look at 
that.
    But clearly, we need to find out what is an appropriate fee 
structure going forward, if there is one, because I am not sure 
if this is certainly a fee-dependent proposal solely.
    You know, this is part of our mission set, something that 
is critical for us to do to make sure that we vet these 
individuals before they actually begin their travel to the 
United States because we look at it as a continuum that begins 
when somebody actually buys a ticket, applies for an ESTA 
before they actually board an aircraft in a foreign location.
    As for the specific compliance rates, I don't have that 
today, and I can certainly provide that in detail for the 
record.
    Mr. Pascrell. I will mention to Chairman Thompson about 
getting that report about the northern border, see what is 
convenient for you and the committee itself. I want to 
personally thank the witnesses on behalf of the members new and 
old, and that is tenure I am speaking of.
    Mr. Morton, wish you the best of luck. It is a tough task 
you are taking on, and you are joining some very professional 
people here, Mr. Ahern and Admiral----
    Ms. Jackson Lee. Mr. Chairman, one question?
    Mr. Pascrell. Make it a quick one please?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I am 
interested--this is, I think, to Mr. Morton on the 287(g) 
program, which has likewise had its birth and its health in the 
inability for comprehensive immigration reform.
    My question is you are part of this whole idea of 
comprehensive immigration reform. Do you believe immigration 
enforcement, immigration reform is a federal issue? Is that the 
priority of the department?
    Mr. Morton. Well, there is no question that immigration 
enforcement is a basic responsibility of the federal 
government. And the Immigration and Nationality Act has been 
Congress' direction on that score for, you know, well over 50 
years. So I do think that that is the principal responsibility.
    Ms. Jackson Lee. What I would encourage and I understand 
your comment on that, but as we move toward the possibility of 
comprehensive immigration reform, we have found the 287(g) 
program from my perspective drains federal funds. It takes away 
the prioritization of local crime which may include arresting 
someone who is, in fact, happens to be undocumented, but that 
is in the normal course of business.
    I would like to get a sense if we have comprehensive 
immigration reform, the right kind of funding, the right kind 
of directions for ICE for example and the funding needs that 
they have. I would like a reconsideration of the value of the 
287(g) program that really takes money away from federal 
enforcement and clouds the responsibilities of local 
enforcement.
    And your assessment of that or the ability to reconsider 
whether that program is valuable as we move forward?
    Mr. Morton. I would be happy to do that as we go forward. 
Obviously as you know the 287(g) is now presently part of the 
law----
    Ms. Jackson Lee. I understand.
    Mr. Morton. --and part of the Immigration and Nationality 
Act, and I will say that cooperation with state and local law 
enforcement is a critical thing, and that is much of what 
287(g) was designed to do. And in many contexts it works quite 
well, particularly in the jail setting. It does address many of 
the concerns that you outlined earlier about identifying and 
removing criminal aliens.
    Just one very quick point just to respond to something 
earlier, you said. And I just want to let you know that we 
have, as part of the secretary's initiative on the southwest 
border, brought additional detention and removal officers to 
bear.
    I believe some of those are actually in the Houston area, 
and I would be more than happy to find out if they are there 
and let you know if they are in place and what they are doing.
    Ms. Jackson Lee. I would be delighted, and I would like to 
sit down with you. And my last point is on the 287(g) for you 
to consider, is that news reporters and others and the various 
groups that may be opposed to immigration reform will call 
cities sanctuary cities.
    And when they do that they put in a bad light very hard-
working police departments and other law enforcement. That was 
what happened to Houston. We have not been a 287(g) city. We 
denounced doing that. We felt it was important to have a good 
relationship with the immigrant community so that we could 
solve crimes.
    We got labeled a sanctuary city, and before you know it we 
have a 287(g) application in place. Many of us oppose that, and 
so to utilize the 287(g) process to clear your name, and I 
believe you will find that happening across America and you 
should look at that.
    That is why I think that program has a lot of faults to it, 
and frankly we need to move the enforcement of immigration 
issues back where it deserves, and that is the federal 
government.
    Mr. Pascrell. Thank you, gentlelady.
    Ms. Jackson Lee. Thank you.
    Mr. Pascrell. The members of the subcommittee may have 
additional questions for the witnesses and if they do we will 
ask you to respond expeditiously in writing. Hearing no further 
business the subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


              Appendix I--Fiscal Year 2010 Budget Request

                              ----------                              

    The Coast Guard's fiscal year 2010 budget request maintains DoD 
Parity for its workforce and continues critical recapitalization 
efforts while focusing on: enhancing maritime safety and security and 
modernizing business practice. Highlights include:

    Recapitalizing Aging Assets
    Deepwater--Surface Assets $59
    (50 Full-Time Equivalents (FTE))
    The President's Budget requests $591.4Mfor the following surface 
asset recapitalization or enhancement initiatives: completion of 
National Security Cutter 4; continued analysis and design for the 
Offshore Patrol Cutter (OPC); production of Fast Response Cutters #5-
#8; production of Deepwater Cutter Small Boats; and crucial operational 
enhancement of five Medium Endurance Cutters and three 110-foot Patrol 
Boats at the Coast Guard Yard through the Mission Effectiveness 
Program.

    Deepwater-Air Assets FTE)
    $305.5M (0 FTE)
    The President's Budget requests $305.5M for the following air asset 
recapitalization or enhancement initiatives: delivery of HC-144A 
Maritime Patrol Aircraft #13-#14; HH-60 engine sustainment and 
avionics, wiring, and sensor upgrades for eight aircraft; HH-65 
conversion to modernized components, cockpit, and enhanced 
interoperability for 22 aircraft; and HC-130H avionics and sensor 
upgrades for eight aircraft, as well as four center wing box 
replacements.

    Deepwater-Other (0 FTE)
    $154.6M (0 FTE)
    The President's Budget requests $154.6M for the following equipment 
and services: Government Program Management funds for critical 
oversight and contract management; Systems Engineering and Integration 
funds for continued integration of complex and diverse technical 
configurations for all projects; continued development of logistics 
capability and facility upgrades at shore sites where new assets will 
be homeported; upgrades to command, control, communications, computer, 
intelligence, surveillance and reconnaissance (C4isr) items; and 
prevention of asset obsolescence by replacing aging technology.

    Response Boat Medium (RB-M)
    $103mm (0 FTE)
    The President's Budget requests $103M to order 30 boats to replace 
the aging 41-foot utility boat and other non-standard boats with an 
asset more capable of meeting the Coast Guard's multi-mission 
requirements.

    Rescue
    $117M (0 FTE)
    The President's Budget requests $117M for California and New 
England Sectors to receive Rescue 21 capability, and continued 
development of Great Lakes, Hawaii, Guam, and Puerto Rico Sectors.

    Shore Facilities and ATON ecap Projects FTE)
    The President's Budget requests $10M to support shore facility and 
ATON recapitalization. The Coast Guard received $88M from Recovery Act 
funding for shore projects. The Coast Guard occupies more than 22,000 
shore facilities with a replacement value of approximately $7.4B. FY 
2010 funding supports $6M for Survey and Design (planning and 
engineering of outyear shore projects) and $4M for ATON infrastructure 
(improvements to short-range aids and infrastructure).

    Enhancing Maritime Safety and Security
    Marine Safety Program (37 FTE)
    $7.5M (37 FTE)
    The President's Budget requests $7.5M to support 74 additional 
personnel including marine inspectors and investigating officers at 
field units, marine inspector training officers at feeder ports, 
staffing for the Steam and Vintage Vessels Center of Expertise, 
engineers for standards development and review, and expanded training 
curricula at the Marine Safety School in Yorktown, VA.

    Armed Helicopters Enhancement
    $0.845M (7 FTE)
    The President's Budget requests $845K for 14 gunners to support an 
additional 450 armed deployed days away from home station (DDAS), 
increasing the total DDAS to 1,450. This additional capability will 
significantly improve the Coast Guard's ability to deter drug 
trafficking and maritime threats, and will play a vital role in 
establishing an integrated, interoperable border security system.

    Biometrics at Sea System
    $1.183M (1 FTE)
    The President's Budget requests $1,183M to purchase equipment and 
provide maintenance on 18 cutters currently operating the Biometrics at 
Sea system (BASS), as well as engineering development and program 
management. BASS enables Coast Guard personnel to identify dangerous 
individuals documented in the U.S. Visitor and Immigration Status 
Indicator Technology (US-VISIT) database including known felons, those 
under deportation orders, and those on a terrorist watchlist. With a 
nearly 75 percent reduction in undocumented migrant flow from the 
Dominican Republic, the BASS pilot program demonstrated its 
effectiveness in deterring attempts by undocumented migrants to enter 
the United States illegally.

    SeaHawk Charleston IOC Sustainment
    1.088M (1 FTE)
    The President's Budget requests $1,088M to fund SeaHawk Charleston. 
SeaHawk is a multi-agency collaborative, unified command-based work 
environment with the cooperative and complementary capabilities of an 
intelligence cell. Members include the Federal Bureau of Investigation, 
Joint Terrorism Task Force, Coast Guard, Customs and Border Protection, 
Immigration and Customs Enforcement, and other Federal, state, and 
local agencies.

    Modernizing Business Practices
    Financial Management Oversight
    $20M (44 FTE)
    The President's Budget requests $20M to support critical 
modernization of the Coast Guard's financial management structure, 
which includes processes, internal controls, IT systems, and human 
resources. The goals of this transformation are to improve the 
Service's ability to link mission performance to budget and ensure 
compliance with the DHS Financial Accountability Act. Financial 
management modernization will create an environment for a sustainable 
clean audit opinion on annual financial statements.

    Reinvestments
    (88.4M) (399 Full-Time Positions (FTP))
FY 2010 savings include:
Termination of FY 2009 one-time costs ( $32.7M)
decommissioning of four aging aircraft ($11.2M)
Annualization of FY 2009 management of technology efficiencies ($4.9M)
LORAN-C termination ($36M)
OSC Martinsburg earmark reduction ($3.6M)

LORAN-C Termination
    As a result of technological advancements over the last 20 years 
and the emergence of the
    U.S. Global Positioning System (GPS), LORAN-C is no longer required 
by the Armed Forces, the transportation sector, or the Nation's 
security interests. The LORAN-C system was not established as or 
intended to be a viable backup for GPS. Consistent with the 
Administration's pledge to eliminate unnecessary Federal programs and 
systems, Federal broadcast of the LORAN-C signal will be terminated in 
fiscal year 2010 after satisfying domestic and international 
notification obligations. The Coast Guard will systematically close, 
harden, and de-staff its 24 LORAN-C stations and associated support 
units.
    Termination of LORAN-C will result in a savings of $36M in FY 2010 
and $190M over five years. In total, 293 FTP associated with LORAN-C 
will be eliminated during the fiscal year and military personnel will 
be reassigned to other missions.


                  Appendix II--Questions and Responses

                              ----------                              


Questions from the Honorable Loretta Sanchez, Chairwoman, Subcommittee 
            on Border, Maritime, and Global Counterterrorism

  Responses from Admiral Thad W. Allen, Commandant, U.S. Coast Guard, 
                    Department of Homeland Security

    Question 1.: The President's budget includes funding for additional 
contracting officers for the Coast Guard. How does the Coast Guard plan 
to build its own acquisition workforce?
    Response: Following participation in a DHS-wide pilot, the Coast 
Guard awarded a contract with Dayton Aerospace, Inc. to provide a 
Sustainment Acquisition Composite Model (S/ACOM) for project 
acquisition workforce staffing requirements. The model will project 
current and future year (5 year) requirements in accordance with the 
DHS Future Years' Homeland Security Program (FYHSP), as well as provide 
a functional breakout for all major system acquisition projects. The 
first model results are expected to be available in the summer of 2009. 
The model results will help to establish the optimum size of the Coast 
Guard acquisition workforce. Guided by this model, the approved Coast 
Guard Human Capital Plan will be used to build the appropriate 
acquisition workforce.

    Under what circumstances will private contractors continue to be 
used?
    Response: Coast Guard acquisition is accomplished by Coast Guard 
personnel (civilian and military), Other Government Agency (OGA) 
personnel, and support contractors. The acquisition support contractors 
(private contractors) will provide assistance only with non-inherently 
governmental work in the areas of project management, logistics, 
engineering, administration, and business analysis and only when the 
nature of the task is best accomplished by support contractors, e.g., 
best value to the government, short duration needs, etc. The Coast 
Guard anticipates the number of acquisition support contractors to 
increase some over the next year or two as ICGS work decreases and then 
start to decline based on the increased number of Coast Guard and OGA 
personnel.

    How will the Coast Guard decide what roles contractors may fulfill 
and what jobs only government employees can perform?
    Response: The Coast Guard is executing Version 3.0 of its Blueprint 
for Acquisition Reform, the comprehensive plan for improving 
acquisition capability within the service. In accordance with "The 
Blueprint," the Coast Guard Acquisition Directorate published Standard 
Operating Procedure #18, Guidance on Inherently Governmental Functions 
and Commercial Activities on 16 June 2009. A copy is attached which 
provides additional information for the work that support contractors 
can accomplish related to Coast Guard acquisitions.
    Question 2.: The President's budget requests $1.05 billion for the 
Integrated Deepwater Program. A significant portion of this request is 
for the construction of National Security Cutters #2 and #3. Can you 
please provide us with information about the status of these ships? 
When will they be completed and fully operational?
    Response: The President's Budget for FY 2010 does not request funds 
for National Security Cutter (NSC) #2 or NSC #3, but does request funds 
to award NSC #4 Production.
    NSC #2 is approximately ninety percent complete. Builders and 
Acceptance Trials are planned for the fourth quarter of FY 2009 and 
delivery is scheduled for the first quarter FY 2010. NSC #2 will be 
fully operational within two years of delivery.
    NSC #3 is approximately twenty percent complete. The keel laying is 
planned for July 2009 and the cutter is scheduled for delivery in the 
fourth quarter of FY 2011. NSC #3 will be fully operational 
approximately two years later.

    Question 3.: The multinational patrol force Combined Task Force 151 
(CTF-151), currently under the command of the U.S. Navy, was 
established in early 2009 specifically to target piracy. It is my 
understanding that the Coast Guard has deployed a law enforcement 
detachment to Navy ships participating in Combined Task Force (CTF)-
151.
    In general, how effective have this coalition's efforts been to 
deter or interdict piratical attacks?
    What other Coast Guard assets, if any, are currently allocated to 
counter-piracy efforts in the Horn of Africa region?
    Response: CTF 151 is a multinational task force that conducts 
counter-piracy operations in and around the Gulf of Aden, Arabian Sea, 
Indian Ocean and the Red Sea and was established to create a lawful 
maritime order and develop security in the maritime environment. The 
coalition's efforts provide an effective maritime interdiction and 
response force, but to deter piratical attacks also requires a shore-
side solution.
        <bullet> The Coast Guard supports the combatant commander's by 
        deploying Coast Guard assets (LEDETs, MSSTs, Patrol Boats and 
        High Endurance Cutters) to support CTF 151 efforts to deter and 
        disrupt acts of piracy. Coast Guard personnel are seen as the 
        subject matter experts in the conduct of boarding's and 
        preparation of case packages in support of follow-on 
        prosecution.
                <bullet> CG LEDETs have embarked in US combatants 
                serving within CTF 151. They augment US Navy and 
                coalition VBSS teams, and provide training on:
                        <bullet> Maritime Laws
                        <bullet> Boarding policies and procedures
                        <bullet> Evidence Collection and preparation
                        <bullet> Tactical procedures
    As of June 1, 2009 USCG Maritime Safety and Security Teams (MSST) 
replaced CG Law Enforcement Detachments (LEDETS) as the deployed force 
supporting CTF 151.
    The Coast Guard has also been working with industry, international, 
and interagency partners to reduce the risk profile offered by vessels 
transiting the high risk area. In terms of effectiveness, the following 
case specifics are offered.

FACTS
    February 2009--CG LEDET operating with USN VBSS teams from the USS 
Vella Gulf apprehend 16 suspected pirates.
        <bullet> The team conducted a boarding of a suspected pirate 
        skiff and found several weapons. The seven suspected pirates 
        were brought aboard Vella Gulf, where they were processed and 
        then transferred to a temporary holding facility on board the 
        supply ship USNS Lewis and Clark.
        <bullet> Nine additional suspected pirates were apprehended 
        after VBSS teams from Vella Gulf and Mahan boarded a vessel 
        that contained assorted weapons and one rocket propelled 
        grenade launcher. Those suspected pirates were also transferred 
        to a temporary holding facility on board Lewis and Clark.
        <bullet> In both events, the VBSS teams were comprised of Coast 
        Guardsmen and Sailors and marks the first time CTF 151 has 
        apprehended suspected pirates.

    March 2009--CG LEDET operating with USN VBSS teams from the USS 
Gettysburg apprehended 6 suspected pirates.
        <bullet> At approximately 4:30 a.m., the Philippines-flagged 
        Motor Vessel Bison Express sent a distress call to all ships in 
        the area reporting they were being pursued by a small skiff 
        containing six heavily-armed suspected pirates.
        <bullet> The six suspected pirates were apprehended and 
        transferred onto the amphibious assault ship USS Boxer.

    April 17, 2009--CG LEDET operating with a USN VBSS team apprehended 
8 suspected pirates.
        <bullet> Danish-flagged dry cargo carrier M/V PUMA sent a 
        distress call indicating an ongoing attack by a pirate 
        speedboat while transiting the Gulf of Aden.
        <bullet> PUMA's crew of three Danes and four Filipinos zig-
        zagged the vessel and used flares to avoid the speedboat 
        carrying five armed pirates. The speedboat returned to the 
        Mother Ship.
        <bullet> A Maritime Patrol Aircraft located the Mother Ship and 
        speedboat, and directed a USN asset with embarked LEDET to 
        intercept. Upon boarding, the LEDET discovered 80 people: 8 
        Somali Pirates and 72 people being smuggled into Yemen.
        <bullet> The LEDET detained the Pirates, and confiscated 
        automatic weapons, Rocket Propelled Grenades, and ammunition.
        <bullet> Disposition for detained people, evidence, and pirate 
        vessels are pending at this time. PUMA's crew was uninjured.

    May 13, 2009: CG LEDET operating with USN VBSS team from the USS 
Gettysburg apprehended 17 suspected pirates.
        <bullet> USS Gettysburg received a distress call fm the 
        Egyptian flagged M/V AMIRA claiming they were under attack from 
        a skiff containing 7 pirates. AMIRA claimed that they were 
        struck 3 times with anti-tank rockets and small arms fire. They 
        also indicated that the pirates had attempted to board their 
        vessel.
        <bullet> A South Korean helicopter arrived on scene and 
        thwarted the attack. The skiff was then taken in tow by the 
        Yemenese flagged M/V ISHAK.
        <bullet> A joint USN/USCG VBSS team conducted a boarding of M/V 
        SIAHK and discovered assault rifles, small arms, ammunition, 
        and an anti-tank rocket launcher with rocket. In addition, the 
        team discovered boarding ladders and grappling hooks.
        <bullet> 17 suspected pirates were taken into custody and were 
        awaiting disposition to Kenya.

    May 23, 2009: A helicopter from the USS Gettysburg discovers a 
suspicious skiff loitering in the internationally recommended transit 
corridor (IRTC).
        <bullet> While on patrol, a helicopter from the USS Gettysburg 
        sighted a skiff with 8 POB and 2 boarding ladders. As the ship 
        closed to investigate the skiff made an attempt to flee towards 
        Somalia waters.
        <bullet> USS Gettysburg successfully intercepted and stopped 
        the fleeing skiff.
        <bullet> A joint USN/USCG VBSS team conducted a boarding of the 
        skiff and discovered assault rifles, small arms, and 
        ammunition.
        <bullet> 8 suspected pirates were taken into custody. On May 
        24, 2009 the decision was made to release the suspected pirates 
        in their skiff.

                                 <all>

</pre></body></html>
